Treasury Continues Approving Excessive Pay
for Top Executives at Bailed-Out Companies




SIGTARP 13-001                   January 28, 2013
                    Office of the special inspector general
                        For the Troubled Asset Relief Program
                                  1801 L Street, NW, 4th Floor
                                     Washington, D.C. 20220




                                       January 28, 2013


MEMORANDUM FOR:            The Honorable Timothy F. Geithner – Secretary of the Treasury



FROM:                      Ms. Christy L. Romero – Special Inspector
                           General for the Troubled Asset Relief Program

SUBJECT:                   Treasury Continues Approving Excessive Pay for Top Executives at
                           Bailed-Out Companies (SIGTARP 13-001)


We are providing this report for your information and use. It discusses Treasury’s 2012
executive compensation decisions for Top 25 employees of American International Group, Inc.,
General Motors Corporation, and Ally Financial Inc.

The Office of the Special Inspector General for the Troubled Asset Relief Program conducted
this evaluation (engagement code 003), under the authority of the Emergency Economic
Stabilization Act of 2008 and Public Law 110-343, as amended, which also incorporates the
duties and responsibilities of inspectors general under the Inspector General Act of 1978, as
amended.

We considered comments from the Department of the Treasury when preparing the report.
Treasury’s comments are addressed in the report, where applicable.

We appreciate the courtesies extended to our staff. For additional information on this report,
please contact me or Mr. Bruce Gimbel, Acting Assistant Deputy Special Inspector General for
Audit and Evaluation (Bruce.Gimbel@treasury.gov / 202-927-8978).




SIGTARP 13-001                                                                  January 28, 2013
Treasury Continues Approving Excessive Pay for Top Executives
at Bailed-Out Companies


Summary                                           SIGTARP initiated this evaluation to assess
                                                  OSM’s pay-setting process for 2012 for Top
                                                  25 employees of the remaining TARP
When Congress passed the Troubled Asset           exceptional assistance companies, AIG,
Relief Program (“TARP”) and subsequent            GM, and Ally in light of the findings and
economic stimulus legislation, it placed          recommendations in SIGTARP’s earlier
limitations on executive compensation for         report.
TARP recipients, and left it to the U.S.
Department of the Treasury (“Treasury”) to
implement the limitations. Treasury created       What SIGTARP Found
the Office of the Special Master for TARP         SIGTARP found that once again, in 2012,
Executive Compensation (“OSM”).                   Treasury failed to rein in excessive pay. In
Kenneth R. Feinberg served as the Special         2012, OSM approved pay packages of
Master – often called the pay czar – and was      $3 million or more for 54% of the 69 Top 25
succeeded by Patricia Geoghegan. OSM has          employees at American	International	
jurisdiction over compensation at companies       Group,	Inc.	(“AIG”),	General	Motors	
that stood out from the more than 700 TARP        Corporation	(“GM”),	and	Ally	Financial	
recipients because of the amount and nature       Inc.	(“Ally,”	formerly	General	Motors	
of their exceptional bailout. OSM sets pay        Acceptance	Corporation,	Inc.) – 23% of
for Top 25 employees at these TARP                these top executives (16 of 69) received
exceptional assistance recipients.                Treasury-approved pay packages of
                                                  $5 million or more, and 30% (21 of 69)
In January 2012, the Office of the Special
                                                  received pay ranging from $3 million to
Inspector General for TARP (“SIGTARP”),
                                                  $4.9 million. Treasury seemingly set a
issued a report finding that, from 2009 to
                                                  floor, awarding 2012 total pay of at least
2011, the Special Master could not rein in
                                                  $1 million for all but one person. Even
excessive compensation at the seven
                                                  though OSM set guidelines aimed at curbing
companies that received exceptional TARP
                                                  excessive pay, SIGTARP previously warned
assistance because he was under the
                                                  that Treasury lacked robust criteria, policies,
constraint that his most important goal was
                                                  and procedures to ensure those guidelines
to get the companies to repay TARP.
                                                  are met. Treasury made no meaningful
SIGTARP reported that despite reducing
                                                  reform to its processes. Absent robust
some pay, OSM approved pay packages
                                                  criteria, policies, and procedures to ensure
worth $5 million or more for 49 individuals.
                                                  its guidelines were met, OSM’s decisions
SIGTARP reported that OSM did not
                                                  were largely driven by the pay proposals of
establish meaningful criteria for granting
                                                  the same companies that historically, and
exceptions to what Feinberg called
                                                  again in 2012, proposed excessive pay.
“prescriptions” – that total compensation
                                                  With the companies exercising significant
should target the 50th percentile for similarly
                                                  leverage, the Acting Special Master rolled
situated employees at similarly situated
                                                  back OSM’s application of guidelines aimed
entities and that cash salaries should not
                                                  at curbing excessive pay.
exceed $500,000, except for good cause.
SIGTARP made recommendations for
                                                  The guidelines originally created by former
Treasury to improve these pay-setting
                                                  Special Master Feinberg were aimed at
processes.


SIGTARP 13-001                                                                  January 28, 2013
Treasury Continues Approving Excessive Pay for Top Executives
at Bailed-Out Companies

fixing the material role executive                companies proposed raises. Treasury
compensation played in causing the                approved a $1 million pay raise for AIG’s
financial crisis by encouraging excessive         CEO of its subsidiary, Chartis, a $200,000
risk taking. By not holding the line on large     pay raise for an employee of its subsidiary,
cash salaries (awarding $500,000 or more to       Residential Capital, LLC (“ResCap”) –
70% of the executives under OSM’s pay-            weeks before ResCap filed for bankruptcy –
setting jurisdiction, and allowing 94% of         and a $100,000 pay raise for an executive at
employees to be paid cash salaries of             GM’s European unit, despite that unit
$450,000 or more), and removing long-term,        experiencing significant losses. OSM’s
incentive-based stock as requested by the         written explanations for the pay raises
companies, OSM is effectively relinquishing       lacked substance, largely parroting what
some of OSM’s authority to the companies,         each company asserted to OSM without any
which have their own best interests in mind.      independent analysis by OSM.
The Office of the Special Master’s job is to
look out for the interests of taxpayers, which    In 2012, OSM did not follow its own
it cannot do if it continues to rely to a great   guidelines aimed at curbing excessive pay
extent on the companies’ proposals and            by having total compensation generally not
justifications without conducting its own         exceed the 50th percentile for similarly
independent analysis.                             situated employees. Treasury awarded total
                                                  pay packages exceeding the 50th percentile
Given OSM’s overriding goal to get the            by more than $37 million for approximately
companies to repay TARP, as in prior years,       63% of the Top 25 employees of AIG, GM,
the companies in 2012 had significant             and Ally. The Acting Special Master
leverage over OSM by proposing and                appears to have rolled back the 50th
negotiating for excessive pay, warning that       percentile guideline, telling SIGTARP, for
if OSM did not provide competitive pay            example, that she set total compensation for
packages, top executives would leave and go       all of Ally’s Top 25 employees between the
elsewhere. By proposing and negotiating           50th and 75th percentiles.
for excessive 2012 pay, these executives
continue to lack an appreciation for their        Feinberg previously told SIGTARP that he
extraordinary situations and fail to view         limited cash salaries to $500,000 and shifted
themselves through the lenses of companies        compensation more toward stock to reduce
substantially owned by the U.S. Government        excessive risk and keep employees’ “skin in
(“Government”). For example, by the               the game.” Feinberg testified before
companies requesting pay raises for 18            Congress that “base cash salaries should
employees, the companies evidenced a lack         rarely exceed $500,000, and only then for
of appreciation that they continued to be         good cause shown, and should be, in many
funded by taxpayers. GM CEO Dan                   cases, well under $500,000.” Never have
Akerson even asked Treasury Secretary             there been so many exceptions to the
Geithner to relieve GM from OSM’s pay             $500,000 cash salary guideline for the
restrictions, which was denied.                   number of people under the Acting Special
                                                  Master’s jurisdiction as there was in 2012.
OSM awarded $6.2 million in pay raises to         The Acting Special Master increased the
18 of the 18 employees for whom the               number of employees with Treasury-



SIGTARP 13-001                                                                 January 28, 2013
Treasury Continues Approving Excessive Pay for Top Executives
at Bailed-Out Companies

approved cash salaries greater than $500,000    stock from some executives’ pay and used it
from 22 employees in 2011 to 23 employees       only in half of the pay packages, effectively
in 2012, a number that has quadrupled since     removing a key OSM guideline aimed at
2009.                                           reducing excessive risk by tying individual
                                                compensation to long-term company
OSM also allowed 25 employees to have           success. She also removed long-term
cash salaries exactly at the $500,000 limit.    restricted stock for senior executives,
OSM allowed cash salaries of $500,000 or        including the CEOs of AIG, GM, and Ally
more for 70% (48 of 69) of Top 25
employees at AIG, GM, and Ally. OSM             There are two lessons to be learned from
allowed cash salaries of $450,000 or more       OSM’s 2012 pay-setting process and
for 94% (65 of 69) of Top 25 employees at       decisions:
AIG, GM, and Ally. In stark contrast, the
2011 median household income of U.S.            First, guidelines aimed at curbing excessive
taxpayers who fund these companies was          pay are not effective, absent robust policies,
approximately $50,000.                          procedures, or criteria to ensure that the
                                                guidelines are met. This is the second report
Similar to OSM’s explanations for               by SIGTARP to warn that the Office of the
approving pay raises, OSM’s “justifications”    Special Master, after four years, still does
for good cause for cash salaries to exceed      not have robust policies, procedures, or
$500,000 largely parrot what each company       criteria to ensure that pay for executives at
asserted to OSM without an OSM                  TARP exceptional assistance companies
independent analysis. The Acting Special        stays within OSM’s guidelines. Perhaps the
Master told SIGTARP that it would be            Acting Special Master thinks that OSM has
“utterly normal” for these individuals in the   already succeeded in achieving its mission
Top 25 to expect over $500,000 in cash          by limiting compensation for these
salary. That might be true if the companies     executives from pre-TARP levels or
had not been bailed out and were not still      believes that OSM’s existing processes are
significantly owned by taxpayers. Acting        sufficient. The question is whether it is
Special Master Geoghegan said she did not       sufficient for taxpayers. Treasury continues
think that when the $500,000 guideline was      to award excessive pay packages, including
formulated, it would take an “independent       large guaranteed cash salaries. Meaningful
little project” to determine when someone       reform is still possible because GM and Ally
should go above $500,000. If the pay czar is    remain under OSM’s jurisdiction. Without
not even willing to independently analyze       meaningful reform, including independent
high cash salaries for 23 employees, who        analysis by OSM, Treasury risks that TARP
else will protect taxpayers?                    companies could potentially misuse taxpayer
                                                dollars for excessive executive
Feinberg testified before Congress that he      compensation.
used long-term restricted stock tied to
performance metrics to correct problems         Second, while historically the Government
with executive compensation practices at        has not been involved in pay decisions at
these companies. In 2012, the Acting            private companies, one lesson of this
Special Master removed long-term restricted     financial crisis is that regulators should take



SIGTARP 13-001                                                                January 28, 2013
Treasury Continues Approving Excessive Pay for Top Executives
at Bailed-Out Companies

an active role in monitoring and regulating     response	can	be	found	in	the	Management	
factors that could contribute to another        Comments	section	of	the	report.
financial crisis, including executive
compensation that encourages excessive risk
taking. According to OSM, OSM’s
authority to set pay for AIG executives has
ended. SIGTARP previously reported that
AIG CEO Benmosche told SIGTARP that
the Special Master’s practices would have
no lasting impact. He also said, however,
that pay and performance must be linked,
and if the majority of income is fixed, or
guaranteed, then pay is not linked to
performance. Given AIG’s considerable
pushback on OSM’s limitations on pay as
reported in SIGTARP’s prior report, it is
highly likely that AIG could return to past
compensation practices. The responsibility
shifts to the Federal Reserve Board to ensure
that AIG does not encourage excessive risk
taking through compensation.


What SIGTARP Recommended
In this report, SIGTARP recommended that
each year Treasury should reevaluate
compensation for employees in the Top 25
from the prior year; develop policies,
procedures, and criteria for approving pay in
excess of Treasury guidelines;
independently analyze whether good cause
exists to award a pay raise or cash salary
over $500,000; and return to using long-
term restricted stock for employees,
particularly for senior employees such as
CEOs.

Treasury	provided	an	official	written	
response	to	a	draft	of	this	report	in	a	
letter	dated	January	25,	2013,	which	is	
produced	in	full	in	Appendix	H.		Treasury	
did	not	agree	to	implement	any	of	the	
recommendations	contained	in	the	
report.		A	fuller	discussion	of	Treasury’s	


SIGTARP 13-001                                                           January 28, 2013
Treasury Continues Approving Excessive Pay for Top Executives
at Bailed-Out Companies


Table of Contents
Introduction.................................................................................................................................... 1	
Background ................................................................................................................................... 3	
   The Process Developed by Special Master Feinberg To Approve Pay Packages........ 4	
   SIGTARP Publishes Its Report on the Office of the Special Master’s Process ............. 5	
   Acting Special Master Sets 2012 Pay Packages with Input from Companies and
   Senior Treasury Officials ......................................................................................................... 5	
Treasury Approved Pay Packages Worth $3 Million or More for 54% of the 69 Top 25
Employees, with 16 Pay Packages Worth at Least $5 Million .............................................. 7	
   In 2012, Treasury Approved Pay Packages Worth at Least $1 Million for Every
   Employee Except One Under the Special Master’s Pay-Setting Jurisdiction, and
   Approved All but One AIG Employee To Receive Pay Packages Worth at Least
   $2 Million .................................................................................................................................... 9	
   Treasury Failed To Take Sufficient Meaningful Action in Response to SIGTARP’s
   Prior Report ............................................................................................................................... 9	
Despite Creating Guidelines Aimed at Curbing Excessive Pay, Treasury Approved
Approximately $37 Million in Executive Compensation for Top 25 Employees at AIG,
GM, and Ally that Exceeded Its Own Guidelines .................................................................. 11	
   To Curb Excessive Compensation, Treasury Guidelines Provided that an Employee’s
   Total Compensation Generally Should Not Exceed the 50th Percentile for Similarly
   Situated Employees at Similarly Situated Companies. However, in 2012, Treasury Set
   Pay Greater than the 50th Percentile for 63% of Top 25 Employees at AIG, GM, and
   Ally ............................................................................................................................................ 13	
   Treasury Approved All 18 Pay Raises for Top 25 Employees at AIG, GM, and Ally
   Requested by the Companies, Including a $1 Million Raise for an AIG Senior Official
   ................................................................................................................................................... 14	
In 2012, Treasury Allowed 70% of the Top 25 Employees at AIG, GM, and Ally To Be
Paid Cash Salaries of $500,000 or More, with 33% Paid Cash Salaries of More than
$500,000 ...................................................................................................................................... 17	
   Lacking Criteria and an Effective Decision-Making Process, Treasury Risks
   Continuing To Give Employees of Bailed-Out Companies Excessive Cash
   Compensation Without Good Cause .................................................................................. 18	
   Treasury Awarded Cash Salaries Exceeding $500,000 for Five Additional Employees,
   Four of Whom Exceeded the 50th Percentile .................................................................... 20	
   Treasury Did Not Use Incentive Compensation Tied to Performance Metrics for
   Approximately 50% of the Top 25 Employees .................................................................. 22	




SIGTARP 13-001                                                                                                                 January 28, 2013
Treasury Continues Approving Excessive Pay for Top Executives
at Bailed-Out Companies

   In 2012, AIG, GM, and Ally Failed To Take into Account Their Exceptional Situations
   that Resulted in Taxpayer Bailout........................................................................................ 26	
Conclusions and Recommendations ...................................................................................... 29	
Recommendations ..................................................................................................................... 37	
Management Comments and SIGTARP’s Response .......................................................... 38	
Appendix A – Objectives, Scope, and Methodology ............................................................ 39	
Appendix B – AIG Determinations ........................................................................................... 41	
Appendix C – Ally Determinations ........................................................................................... 42	
Appendix D – GM Determinations ........................................................................................... 43	
Appendix E – Principles of TARP Standards for Compensation and Corporate
Governance; Interim Final Rule ............................................................................................... 44	
Appendix F – Acronyms and Abbreviations ........................................................................... 46	
Appendix G – Evaluation Team Members ............................................................................. 47	
Appendix H – Management Comments.................................................................................. 48	




SIGTARP 13-001                                                                                                   January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                            1




                     Introduction
                     In April 2012, with Americans throughout our country still feeling the effects
                     of the financial crisis, the U.S. Department of the Treasury (“Treasury”)
                     approved multimillion-dollar pay packages for top executives at the three
                     largest bailed-out companies remaining in the Troubled Asset Relief Program
                     (“TARP”): American International Group, Inc. (“AIG”), General Motors
                     Corporation (“GM”), and Ally Financial Inc. (“Ally,” formerly General
                     Motors Acceptance Corporation, Inc.).

                     When Congress passed TARP and subsequent economic stimulus legislation,
                     it placed strict limitations on executive compensation for TARP recipients.
                     Treasury Secretary Timothy F. Geithner said that executive compensation
                     played a material role in causing the financial crisis because it encouraged
                     excessive risk taking. Congress left it to Treasury to implement limitations on
                     executive compensation on TARP recipients. Treasury created TARP
                     Standards for Compensation and Corporate Governance; Interim Final Rule
                     (“IFR,” or “Treasury’s Rule”). Treasury’s IFR created the Office of the
                     Special Master for TARP Executive Compensation (“OSM”) and set forth six
                     principles under which OSM operates. Kenneth R. Feinberg, who served as
                     the Special Master – often called the pay czar – until September 2010, called
                     the principles inherently inconsistent. The Special Master’s primary mission
                     is to set individual pay packages for the Top 251 employees at those
                     companies whose amount and nature of their TARP bailout were considered
                     “exceptional.” Feinberg was succeeded by Acting Special Master Patricia
                     Geoghegan.

                     On January 23, 2012, the Office of the Special Inspector General for the
                     Troubled Asset Relief Program (“SIGTARP”) published “The Special
                     Master’s Determinations for Executive Compensation of Companies
                     Receiving Exceptional Assistance Under TARP.” SIGTARP found that, from
                     2009 to 2011, the Special Master could not effectively rein in excessive
                     compensation at the seven companies that received exceptional assistance
                     under TARP because he was under the constraint that his most important goal
                     was to get the companies to repay and exit TARP.2 SIGTARP reported that

1
   The Top 25 includes the 5 senior executive officers and the next 20 most highly compensated employees.
   Members of the Top 25 may vary from year to year. 
2
   The seven companies were American International Group, Inc. (“AIG”), Citigroup Inc. (“Citigroup”), Bank of
   America Corporation (“Bank of America”), Chrysler Holding LLC (“Chrysler”), General Motors Corporation
   (“GM”), Ally Financial Inc. (“Ally,” formerly General Motors Acceptance Corporation, Inc.), and Chrysler
   Financial Services Americas LLC (“Chrysler Financial”).



SIGTARP 13-001                                                                                January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                   2




                       under conflicting principles and pressures, despite reducing some pay, OSM
                       approved pay packages worth $5 million or more for 49 individuals.

                       In addition, SIGTARP reported that OSM did not establish meaningful criteria
                       for granting exceptions to what Feinberg called “prescriptions” – that total
                       compensation should target the 50th percentile for similarly situated
                       employees at similarly situated entities, and that cash salaries should not
                       exceed $500,000, except for good cause. SIGTARP reported that the
                       companies proposed that their employees be paid cash salaries higher than
                       $500,000, claiming that their employees were crucial, and that for
                       10 employees in 2009, and 22 employees in both 2010 and 2011, GM,
                       Chrysler Financial Services Americas LLC, Ally, and AIG convinced OSM to
                       approve cash salaries greater than $500,000. SIGTARP recommended that
                       OSM substantiate good cause to pay an employee more than $500,000 in cash.
                       SIGTARP reported that it was unable to analyze whether OSM consistently
                       applied the 50th percentile criteria because OSM did not maintain records of
                       the market data showing how it determined the 50th percentile and
                       recommended that OSM better document its use of market data. SIGTARP
                       further recommended that OSM develop more robust policies, procedures, or
                       guidelines for setting pay.

                       SIGTARP began a second evaluation, to assess OSM’s pay-setting process for
                       2012 for Top 25 employees at AIG, GM, and Ally, in light of the serious and
                       significant findings and recommendations in SIGTARP’s report.3

                       SIGTARP conducted this evaluation in accordance with the “Quality
                       Standards for Inspection and Evaluation” established by the Council of the
                       Inspectors General on Integrity and Efficiency. For a discussion of the
                       evaluation’s scope and methodology, see Appendix A.




3
     In December 2012, Treasury sold its remaining AIG common stock.
 




SIGTARP 13-001                                                                       January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                              3




                     Background
                     In June 2009, Treasury issued an IFR, or Treasury’s Rule, which consolidated
                     all TARP executive compensation restrictions into a single rule and created
                     OSM. OSM has jurisdiction over compensation at companies that stood out
                     from the more than 700 TARP recipients because of the amount and nature of
                     their “exceptional” bailouts. Originally, seven companies fell under OSM’s
                     jurisdiction.4 In 2012, AIG, GM, and Ally were the three companies
                     remaining subject to OSM’s review, until December 2012, when AIG repaid
                     Treasury. OSM’s primary responsibility is to set pay for each of the Top 25
                     employees at the TARP exceptional assistance recipients.5

                     Under Treasury’s Rule, the Special Master must determine whether
                     compensation structures and payments are inconsistent with the law or are
                     otherwise contrary to the public interest. Special Master Feinberg testified
                     before the U.S. House of Representatives Committee on Financial Services
                     that this public interest standard is satisfied when a compensation package
                     appropriately balances two competing obligations: Pay packages should not
                     be excessive, to “protect the public good,” but should be sufficient, to
                     “maximize the public’s investment in the financial industry.” In meeting this
                     standard, the Special Master must apply six principles and use discretion to
                     determine the appropriate weight or relevance of those principles depending
                     on the facts and circumstances or when principles conflict.

                     According to Feinberg, who served as Treasury’s Special Master from
                     June 15, 2009, until September 10, 2010, the principles in Treasury’s Rule
                     under which OSM operates are inherently inconsistent. Three OSM principles
                     illustrate this inconsistency: The principle on “comparable structures and
                     payments” states that compensation should be consistent with that of persons
                     in similar positions or roles at similar entities, while principles on “appropriate
                     allocation” and “risk” call for a significant portion of compensation to be paid
                     over the long term and for compensation to avoid incentives to take excessive
                     risks. Therefore, compensation paid over the long term may avoid excessive
                     risk and may not reflect compensation of an employee’s peers, particularly in
                     industries where compensation practices have historically encouraged
                     excessive risk taking.


4
   As reported by SIGTARP in its January 23, 2012, report, OSM’s work had little effect on Citigroup and Bank of
   America, which quickly exited TARP, in part to avoid OSM’s restrictions.
5
   OSM also approves compensation structures (rather than setting individual pay packages) for certain executive
   officers and the next 75 most highly compensated employees. 



SIGTARP 13-001                                                                                 January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                             4




                        As SIGTARP previously reported, Feinberg told the Congressional Oversight
                        Panel that the single most important thing he could do was to get the seven
                        companies to repay the taxpayer. Feinberg said that TARP companies
                        pressured him to let the companies pay executives enough to keep them from
                        quitting, and that Treasury officials pressured him to let the companies pay
                        executives enough to keep the companies competitive and on track to repay
                        TARP.

                        The Process Developed by Special Master Feinberg To Approve
                        Pay Packages

                        Feinberg tried to shift compensation for Top 25 employees away from large
                        guaranteed cash salaries and toward stock using what he called
                        “prescriptions.” In trying to keep the companies competitive, Feinberg told
                        SIGTARP that the 50th percentile was an “obvious” starting point and an
                        “appropriate” level of compensation. According to Feinberg, his decision to
                        limit cash salaries to $500,000 and to increase the proportion of compensation
                        in the form of stock struck a balance between reducing excessive risk and
                        providing enough compensation to keep employees’ “skin in the game.”

                        Under Feinberg’s determination process, the companies submit market data
                        that indicate the market pay for each Top 25 employee. OSM uses Equilar’s
                        ExecutiveInsight Total Compensation Report,6 among other resources, to
                        assess the reasonableness of that market data.

                        Attempting to keep employees’ “skin in the game” and rejecting guaranteed
                        income, OSM apportioned total pay between cash salary, stock salary, and
                        long-term restricted stock using a “prescription” that cash salaries should not
                        exceed $500,000 per year, except for good cause. Under the process Feinberg
                        developed, OSM determines cash salary by assessing the market data, the
                        prior year’s compensation, the importance of the position and individual, the
                        risk that an employee would leave, and any unique circumstances. OSM’s
                        letters to the companies, which set the pay packages for Top 25 employees,
                        state that cash salaries should target the median cash salaries for persons in
                        similar positions or roles at similar entities and should generally not exceed
                        $500,000. OSM determines how much of the remaining compensation would




6
    Equilar’s ExecutiveInsight Total Compensation Report is an executive compensation benchmarking tool.



SIGTARP 13-001                                                                                 January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                             5




                       be paid in stock salary earned immediately versus long-term restricted stock.
                       OSM used this process for 2009, 2010, and 2011 pay.7

                       In his final recommendation, Special Master Feinberg made recommendations
                       to his successor. Feinberg recommended that his successor “limit guaranteed
                       cash,” “demand a performance component for most compensation,” and “hold
                       the line on cash salaries.”

                       SIGTARP Publishes Its Report on the Office of the Special
                       Master’s Process

                       On January 23, 2012, SIGTARP published its report on executive
                       compensation in which SIGTARP found that the Special Master failed to rein
                       in excessive pay and pointed to significant issues with OSM’s process to set
                       pay. SIGTARP’s report recommended that OSM (1) substantiate good cause
                       for cash salaries greater than $500,000; (2) better document its use of market
                       data to determine the 50th percentile; and (3) develop more robust policies,
                       procedures, or guidelines to help ensure that the pay packages it approves are
                       evenhanded.

                       Treasury’s formal response to SIGTARP’s report came from Acting Special
                       Master Geoghegan, who stated: “…OSM has succeeded in achieving its
                       mission. Our office was effective at limiting compensation at the seven
                       companies over which it had authority, while ensuring the companies were
                       well-positioned to pay back the taxpayers’ investments.” The Acting Special
                       Master also stated that OSM reduced pay for the companies’ Top 25
                       executives.

                       Acting Special Master Sets 2012 Pay Packages with Input from
                       Companies and Senior Treasury Officials

                       The companies submitted their pay package proposals in early February 2012,
                       along with market data of compensation of persons in similar positions or
                       roles at peer group entities selected by each company. Each company hired a
                       compensation consultant to prepare its market data. Under Treasury’s Rule,

7
    On October 22, 2009, OSM issued its first compensation determinations for 137 employees of 7 companies that
    had received TARP exceptional assistance. In December 2009, Bank of America and Citigroup repaid their
    exceptional assistance and were no longer subject to the Special Master’s rulings. On March 23, 2010, OSM
    issued 2010 pay determinations for 121 employees of the 5 remaining companies. In May 2010, Chrysler
    Financial exited TARP. On April 1, 2011, OSM issued compensation determinations for 98 employees of the
    remaining 4 companies. In July 2011, Chrysler exited TARP.



SIGTARP 13-001                                                                                 January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                               6




                        OSM has 60 days to issue determinations on individual pay packages when
                        the company proposals are received by OSM and considered “substantially
                        complete.” In late February or early March, company officials came to
                        Washington, D.C., to meet with the Acting Special Master, who told
                        SIGTARP that she wanted to hear what the companies thought was important.

                        The Acting Special Master told SIGTARP that she also met at least twice each
                        with each of four senior Treasury officials, including Deputy Secretary Neal
                        S. Wolin and Assistant Secretary for Financial Stability Timothy Massad.
                        The Acting Special Master told SIGTARP that she wanted to get Assistant
                        Secretary Massad’s view on whether the companies were doing well or had
                        any challenges and that they talked about specific employees’ pay. The
                        Acting Special Master told SIGTARP that, from a practical point of view, she
                        reports to Assistant Secretary Massad.

                        Prior to the Acting Special Master’s final decisions on the pay packages, she
                        met with Deputy Secretary Wolin to brief him so that he would know what
                        OSM was presenting in the determination memorandums. When asked about
                        her meetings with Wolin, the Acting Special Master told SIGTARP that the
                        purposes of the meetings were to inform her decisions, but no one said she
                        had to do anything differently.

                        On April 6, 2012, OSM issued pay determinations to the three remaining
                        companies under OSM’s jurisdiction – AIG, GM, and Ally – setting pay for
                        each Top 25 employee.8 Just prior to that date, Treasury owned a 70% stake
                        in AIG, a 32% stake in GM, and a 74% stake in Ally. Treasury set pay for
                        69 employees of these companies (fewer than 25 employees per company
                        because some employees had left their company during the year).




8
     AIG received $67.8 billion under the Systemically Significant Failing Institutions Program. Ally received
     $17.2 billion under the Automotive Industry Financing Program. GM received $49.5 billion under the
     Automotive Industry Financing Program, $400 million under the Auto Warranty Commitment Program, and
     $300 million under a program aimed at supporting auto suppliers.



SIGTARP 13-001                                                                                   January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                              7




                       Treasury Approved Pay Packages Worth
                       $3 Million or More for 54% of the 69 Top 25
                       Employees, with 16 Pay Packages Worth at
                       Least $5 Million
                       Treasury approved pay packages worth $5 million or more for 23% of the
                       Top 25 employees at AIG, GM, and Ally.9 This equaled 16 out of 69
                       employees (9 AIG employees, 3 GM employees, and 4 Ally employees). In
                       addition, Treasury approved pay ranging from $3 million to $4.9 million for
                       21 out of the 69 employees (12 AIG employees, 4 GM employees, and 5 Ally
                       employees).




9
    SIGTARP previously reported that, from 2009 to 2011, Treasury approved pay packages worth $5 million or more
    for 49 Top 25 employees of the 7 companies that had received exceptional TARP assistance.



SIGTARP 13-001                                                                                January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                                                     8




                           Table 1 below shows Treasury-approved pay packages of $5 million or more.
TABLE 1
2012 OSM-APPROVED COMPENSATION PACKAGES VALUED AT $5 MILLION OR HIGHER
                                                                                            Stock               Long-Term       Total Direct
Employees        Company                                             Cash Salary
                                             Title                                          Salary              Restricted     Compensation
Identified        Name                                                  ($)
                                                                                               ($)               Stock ($)          ($)
 1                  AIG                     CEO                       3,000,000            7,500,000                    0       10,500,000

 2                  Ally                    CEO                                 0          9,500,000                    0        9,500,000

 3                  GM              Chairman and CEO                  1,700,000            7,300,000                    0        9,000,000

 4                  Ally            CEO Mortgage and CM                 600,000            7,403,449                    0        8,003,449

 5                  AIG                 CEO Chartis                   1,800,000            5,200,000             1,000,000       8,000,000

 6                  AIG          President and CEO SAFG                 495,000            5,315,000             1,190,000       7,000,000

 7                  AIG         EVP, Chief Financial Officer            495,000            4,734,000             1,071,000       6,300,000
                                   EVP, Investments and
 8                  AIG                                                 450,000            5,550,000                    0        6,000,000
                                    Financial Services
 9                  AIG                       [1]                       500,000            5,500,000                    0        6,000,000

10                  Ally                      [1]                       600,000            5,024,828                    0        5,624,828

11                  AIG                       [1]                       495,000            4,070,234              934,766        5,500,000

12                  AIG                       [1]                       975,000            4,425,000                    0        5,400,000

13                  GM               Vice Chairman [2]                  600,000            3,300,000             1,500,000       5,400,000

14                  Ally        Chief Administrative Officer            600,000            4,587,357                    0        5,187,357
                                 Senior Vice President and
15                  GM                                                  750,000            2,600,000             1,650,000       5,000,000
                                  Chief Financial Officer
16                  AIG                       [1]                       700,000            3,050,000             1,250,000       5,000,000

Totals                                                             $13,760,000           $85,059,868            $8,595,766    $107,415,634
Source: SIGTARP analysis of OSM’s determination memorandums.
[1] Information not publicly available.
[2] Corporate Strategy, Business Development, Global Product Planning and Global Purchasing and Supply Chain.




SIGTARP 13-001                                                                                                         January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                                    9




                      In 2012, Treasury Approved Pay Packages Worth at Least
                      $1 Million for Every Employee Except One Under the Special
                      Master’s Pay-Setting Jurisdiction, and Approved All but One AIG
                      Employee To Receive Pay Packages Worth at Least $2 Million

                      Treasury seemingly set a floor, awarding 2012 total pay of at least
                      $1 million.10 Treasury also approved pay ranging from $2 million to
                      $2.9 million for 19 employees (4 GM employees, 12 Ally employees, and
                      3 AIG employees). Treasury approved pay ranging from $1.2 million to
                      $1.9 million for 12 GM employees. Moreover, Treasury approved 24 of
                      AIG’s Top 25 employees to receive pay packages worth at least $2 million.

                      Treasury Failed To Take Sufficient Meaningful Action in
                      Response to SIGTARP’s Prior Report

                      Despite SIGTARP’s January 2012 report identifying serious concerns with
                      OSM’s pay-setting process, Treasury continued to use the same process for
                      setting 2012 pay without significant change. According to Acting Special
                      Master Geoghegan, the process OSM used to set 2012 pay packages has not
                      changed. She told SIGTARP that this was OSM’s fourth year and the
                      companies were not proposing anything out of the ordinary.

                      Even though SIGTARP recommended that OSM develop more robust
                      policies, procedures, or guidelines, to date, OSM has not done so. Moreover,
                      despite SIGTARP finding that OSM had no criteria for determining good
                      cause for an employee to be paid a cash salary exceeding $500,000, OSM still
                      lacks such criteria. In 2012, OSM did not independently analyze the basis for
                      awarding cash salaries greater than $500,000. The only changes that OSM
                      has made to its process in response to SIGTARP’s recommendations relate to
                      documentation. OSM has begun to document explanations for cash salaries
                      exceeding $500,000 on an eight-page spreadsheet and document market data
                      it used for validating market estimates provided by each company.11


10
   Only one employee received Treasury-approved pay under $1 million. Treasury awarded this AIG employee a
   guaranteed cash salary of $700,000.
11
   OSM documented its procedures to evaluate the reasonableness of company-supplied market rates. OSM
   documented how it reviewed company-supplied market data, its method for sampling jobs from the Top 25
   positions that it would test, its selection of market comparator peer groups, and its matching of rates at both the
   median and the 75th percentile. OSM included in its pay decisions an overview about the market data supplied by
   each company. The overviews disclose which compensation firms were employed by AIG, Ally, and GM, and the
   market data the firms used. The overviews also summarize the methods the firms employed to determine market
   compensation rates.



SIGTARP 13-001                                                                                    January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES             10




                  However, SIGTARP recommended that OSM substantiate, not just document,
                  good cause for cash salaries greater than $500,000.




SIGTARP 13-001                                                                 January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES              11




                  Despite Creating Guidelines Aimed at Curbing
                  Excessive Pay, Treasury Approved
                  Approximately $37 Million in Executive
                  Compensation for Top 25 Employees at AIG,
                  GM, and Ally that Exceeded Its Own
                  Guidelines
                  In SIGTARP’s last report, SIGTARP found that then-Special Master Feinberg
                  could not effectively rein in excessive compensation because he was under the
                  constraint that his most important goal was to get the companies to repay and
                  exit TARP. This appears to be the case for Acting Special Master Geoghegan
                  as well, who told SIGTARP that the companies should be competitive in their
                  industry so they can pay back the taxpayer.

                  For example, OSM’s written “justification” for AIG CEO Robert
                  Benmosche’s $3 million cash salary reads, “under executive’s leadership,
                  company has repaid 75% of total government assistance.” However, the
                  justification is questionable because OSM has approved Benmosche’s
                  $3 million cash salary under his $10.5 million total pay package for four
                  consecutive years.

                  Despite Special Master Feinberg’s “prescriptions” aimed at curbing excessive
                  pay by shifting pay away from large cash salaries and toward stock, Acting
                  Special Master Geoghegan, who set pay in 2011 and 2012, considered one of
                  his prescriptions (limiting cash salaries to $500,000) to be a discretionary
                  guideline and made a significant number of exceptions to it. Without
                  appropriate criteria to implement the guidelines, in 2012, the Acting Special
                  Master approved compensation that was largely driven by the three
                  companies’ proposals. For example:

                     The Acting Special Master approved pay packages exceeding the 50th
                      percentile by approximately $37 million for 43 of 68 employees (63%)
                      proposed by the 3 companies.

                     OSM approved all 18 pay raises requested by the companies.

                     OSM approved cash salaries above $500,000 for 23 of 26 employees,
                      proposed by the companies, the highest number of employees under


SIGTARP 13-001                                                                  January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                                       12




                           OSM’s pay-setting jurisdiction to receive cash over $500,000 compared to
                           any other year. The companies proposed that 41 out of 68 (approximately
                           60%) of the Top 25 employees be paid cash salaries over the market
                           median, and OSM approved this for 38 (approximately 56%) of the
                           employees.

                          Despite one key principle set forth in Treasury’s Rule calling for
                           performance-based pay, upon the companies’ requests, OSM did not use
                           long-term incentive stock tied to meeting performance criteria for half of
                           the executives (9 AIG, 4 GM, and all of Ally’s 21 Top 25 employees for a
                           total of 34 employees). Moreover, Acting Special Master Geoghegan
                           removed long-term restricted stock from 24 of the 34 employees’ pay
                           packages, and for all but 1 of the 24 employees, replaced it with stock
                           salary, as requested by the companies.

                     As illustrated in Table 2 below, OSM approved 43 pay packages
                     (approximately $37 million) and 38 cash salaries (approximately $6 million)
                     exceeding market medians. OSM also approved 23 cash salaries
                     (approximately $8.5 million) exceeding $500,000.


           TABLE 2
           2012 OSM-APPROVED PAY FOR 69 TOP 25 EMPLOYEES
                                                                                                            Total Pay
                                           Within                 Exceeded                 % Exceeding     Exceeding
           OSM Guideline                   Guideline              Guideline                  Guideline      Guideline
           Guideline 1:
           Total Pay Should                                                                               $37,426,547
                                             25                      43                            63%
           Target Market
           Median [1]
           Guideline 2:
           Cash Salary                                                                                     $6,026,800
                                             30                      38                            56%
           Should Target
           Market Median[1]
           Guideline 3:
           Cash Salary                                                                                     $8,476,000
                                             46                      23                            33%
           Should Not
           Exceed $500,000
           Source: SIGTARP analysis of OSM’s 2012 determination memorandums.
           [1] For 1 of the 69 employees, OSM did not receive market data from the employee’s company.
               Therefore, there were 68 employees in SIGTARP’s sample.




SIGTARP 13-001                                                                                           January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                                13




                        To Curb Excessive Compensation, Treasury Guidelines Provided
                        that an Employee’s Total Compensation Generally Should Not
                        Exceed the 50th Percentile for Similarly Situated Employees at
                        Similarly Situated Companies. However, in 2012, Treasury Set
                        Pay Greater than the 50th Percentile for 63% of Top 25
                        Employees at AIG, GM, and Ally

                        In 2012, OSM did not follow its own guidelines aimed at curbing excessive
                        pay by having total compensation generally not exceed the 50th percentile for
                        similarly situated employees. According to OSM, the 50th percentile was
                        “appropriate” and “reasonable” and allowed employees to be paid similarly to
                        those in other financially distressed companies, while keeping the companies
                        competitive.

                        SIGTARP previously reported that companies pushed back on OSM by
                        claiming that their compensation should be higher than the 50th percentile. In
                        2012, companies continued to push for pay packages exceeding the 50th
                        percentile. The 3 companies (AIG, GM, and Ally) proposed that 43 of 68 of
                        their Top 25 employees (approximately 63%) receive total pay packages
                        exceeding the 50th percentile, and that was what Treasury approved.

                        Acting Special Master Geoghegan told SIGTARP that, as a group, total pay
                        for Ally’s employees was between the 50th and 75th percentiles. Geoghegan
                        also stated that Ally hired the vast majority of its employees within the past
                        three to four years. She reasoned that these individuals should receive pay
                        between the 50th and 75th percentiles so that Ally could attract employees for
                        short-term positions. However, SIGTARP is unaware of an OSM prescription
                        or guideline calling for total pay to exceed the 50th percentile to attract
                        employees for short-term positions.

                        Moreover, OSM approved pay packages exceeding the 50th percentile by
                        approximately $1.7 million, $1.2 million, and $850,000 for three employees
                        of Ally’s mortgage subsidiary, Residential Capital, LLC (“ResCap”),
                        including the CEO of ResCap, despite knowing that ResCap was planning to
                        file for bankruptcy (which it did, weeks after OSM set pay packages).12




12
     On May 14, 2012, Ally announced that its mortgage subsidiary, Residential Capital, LLC, filed for bankruptcy
     relief under Chapter 11 of the U.S. Bankruptcy Code.



SIGTARP 13-001                                                                                    January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                              14




                      Treasury Approved All 18 Pay Raises for Top 25 Employees at
                      AIG, GM, and Ally Requested by the Companies, Including a
                      $1 Million Raise for an AIG Senior Official

                      OSM approved all 18 of the raises proposed by the companies in 2012. These
                      pay raises ranged from $30,000 to $1 million (1% to 23%), over the
                      employees’ 2011 OSM-approved total pay. GM and Ally each proposed nine
                      pay raises, and AIG proposed one pay raise – a raise worth $1 million.

                      The Acting Special Master approved the $1 million raise for Peter Hancock,
                      CEO of AIG’s Chartis subsidiary,13 which the Acting Special Master called “a
                      significant raise” for one of the most important people at AIG after discussing
                      it with senior Treasury officials including the Deputy Secretary.14 OSM
                      approved an increase in cash salary from $500,000 to $550,000 for a ResCap
                      employee, knowing that ResCap was planning for bankruptcy, with OSM
                      noting that the executive was “critical to successful restructuring.”15 OSM
                      approved a $100,000 raise for an executive at GM’s European unit, knowing
                      that unit was experiencing significant financial losses that dragged down the
                      company’s earnings, with OSM noting, “losses in Europe are a significant
                      challenge.”




13
   Peter Hancock was named chief executive officer of Chartis, AIG’s global property casualty business, in
   March 2011, when Chartis was reorganized into two major global groups, commercial and consumer.
14
   The Acting Special Master told SIGTARP that AIG decreased proposed pay raises for other employees.
15
   GM Europe reported earnings before interest and taxes adjusted loss of $400 million in the second quarter of
   2012. GM Chairman and CEO Dan Akerson said that, despite solid results in some areas, the company has to
   offset the headwinds it faces in Europe and South America.



SIGTARP 13-001                                                                                  January 28, 2013
  TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                                                 15




                              Table 3 below illustrates 2012 OSM-approved pay raises for the 18
                              employees.

TABLE 3
2012 OSM-APPROVED PAY INCREASES (SORTED BY PAY INCREASE, IN DOLLARS)
                                                                     2011 Total
Employees        Company                                                                   2012 Total           Pay Increase   Pay Increase
                                             Title                  Pay Package
Identified        Name                                                                          ($)                  ($)            (%)
                                                                        ($)
 1                  AIG                 CEO Chartis                  $7,000,000             $8,000,000           $1,000,000       14%

 2                  GM                        [1]                    3,500,000                4,300,000            800,000        23

                                 Senior Vice President and
 3                  GM                                               4,200,000                5,000,000            800,000        19
                                  Chief Financial Officer
 4                  GM                        [1]                    3,500,000                4,250,000            750,000        21

 5                  GM                        [1]                    4,200,000                4,850,000            650,000        15

 6                  GM                        [1]                    2,550,000                2,925,000            375,000        15

 7                  Ally                  President                   3,647,280               3,991,000            343,720         9

 8                  GM                        [1]                     1,900,000               2,150,000            250,000        13

 9                  Ally                      [1]                    3,000,000                3,200,000            200,000         7

10                  Ally                      [1]                    2,603,414                2,800,000            196,586         8

11                  Ally                      [1]                    2,606,436                2,800,000            193,564         7

12                  Ally                      [1]                     2,414,252               2,600,000            185,748         8

13                  Ally           Chief Financial Officer            2,855,738               3,000,000            144,262         5

14                  GM               Vice Chairman [2]                5,300,000               5,400,000            100,000         2
                                   SEVP, Finance and
15                  Ally                                              4,343,678               4,397,892            54,214          1
                                  Corporate Development
16                  GM                        [1]                      2,050,000              2,100,000            50,000          2

17                  Ally                      [1]                    3,603,830                3,642,944            39,114          1

18                  GM                        [1]                    1,900,000                1,930,000            30,000          2

Totals                                                            $61,174,628               $67,336,836         $6,162,208
Source: SIGTARP analysis of OSM’s determination memorandums.
[1] Information not publicly available.
[2] Corporate Strategy, Business Development, Global Product Planning and Global Purchasing and Supply Chain.




                              OSM’s written explanations for the pay raises lack substance, some of which
                              parroted what each company asserted to OSM. For example, OSM approved
                              one pay raise on the basis that “company reports executive is successfully
                              leading the transformation of the company’s largest subsidiary,” which is
                              essentially what the company stated in its proposal. Other OSM explanations



  SIGTARP 13-001                                                                                                     January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES              16




                  stated that employees were “retention risks” (people at risk of leaving), were
                  crucial, or were strong performers, but provided no analysis to justify the
                  raise. OSM approved raises of 15% to 23% without any further detail or
                  analysis for four employees on the basis that they were among the individuals
                  that GM’s CEO most relied on, and they had received significant promotions
                  or increased job responsibilities.

                  OSM officials told SIGTARP that OSM follows up when it doubts a
                  company’s assertion and they were not suspicious of any assertion by the
                  company. OSM officials told SIGTARP that they approved the pay raises
                  after assessing information provided by each company, speaking with
                  company officials, and reviewing publicly available information and
                  employee market data. In addition, the company’s statements get a general
                  check from Assistant Secretary Massad and Treasury’s Chief Investment
                  Officer. For example, if a company claims that an employee took on
                  additional responsibilities, OSM may ask for additional information, but does
                  not challenge the company.




SIGTARP 13-001                                                                  January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES               17




                  In 2012, Treasury Allowed 70% of the Top 25
                  Employees at AIG, GM, and Ally To Be Paid
                  Cash Salaries of $500,000 or More, with 33%
                  Paid Cash Salaries of More than $500,000
                  Treasury aimed to curb excessive pay by setting a guideline that cash salaries
                  generally should not exceed $500,000. The President announced a $500,000
                  salary cap for top executives at TARP companies that had received
                  exceptional assistance, with any further compensation to be paid in stock that
                  could not be cashed out until TARP was repaid. OSM staff told SIGTARP
                  that the $500,000 cash salary cap was based partially on the President’s
                  statement. As discussed earlier in this report, Special Master Feinberg told
                  SIGTARP that he decided to limit cash salaries to $500,000, and to increase
                  the proportion of compensation in the form of stock to strike a balance
                  between reducing excessive risk and providing enough compensation to keep
                  employees’ “skin in the game.” Feinberg, in testimony before the U.S. House
                  of Representatives Committee on Financial Services, stated, “…base cash
                  salaries should rarely exceed $500,000, and only then for good cause shown,
                  and should be, in many cases, well under $500,000.”

                  Despite Acting Special Master Geoghegan’s public memorandums to the
                  companies that state that, other than exceptional cases for good cause shown,
                  cash salary should not exceed $500,000, the Acting Special Master told
                  SIGTARP there is no cash salary cap. She also said that Feinberg’s governing
                  “prescription” of $500,000 is a “discretionary guideline” and OSM has always
                  allowed exceptions. She described the $500,000 guideline as useful but told
                  SIGTARP that there is no law or regulation that says that she needs a memo to
                  permit a company to go above $500,000.

                  Never have there been so many exceptions to the $500,000 cash salary
                  guideline for the amount of people under the Acting Special Master’s
                  jurisdiction as there were in 2012. Despite the fact that the number of
                  companies under OSM’s jurisdiction decreased from 4 in 2011 to 3 in 2012,
                  the Acting Special Master increased the number of employees with cash
                  salaries greater than $500,000 from 22 to 23 in those years, respectively. This
                  increase has significance. OSM approved 2012 cash salaries exceeding
                  $500,000 for one-third of the employees within OSM’s pay-setting
                  jurisdiction (23 of 69 Top 25 employees at AIG, GM, and Ally). In 2012, the
                  companies had requested that 26 employees be paid cash salaries exceeding
                  $500,000.



SIGTARP 13-001                                                                   January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                                  18




                        As illustrated in Figure 1 below, the number of employees earning Treasury-
                        approved cash salaries greater than $500,000 has nearly quadrupled – from 6
                        in 2009 to 23 in 2012 – despite the fact that the number of companies
                        receiving exceptional assistance under TARP continues to decrease as the
                        companies repay and exit TARP.

       FIGURE 1
       2009-2012 OSM-APPROVED CASH SALARIES EXCEEDING $500,000

            25
                   Number of                                               23
                   Employee Pay Packages                 22

            20



            15                        14                                                     All 3 Companies
                                                                                             AIG
                                                                  11
                                                                                    10       GM
            10                                 9
                                                                                             Ally
                                                                                         7
                    6                                                  6        6
                                           5                  5
             5
                                 3
                             2
                         1
                                                   0
             0
                        2009               2010               2011              2012

       Source: SIGTARP analysis of OSM’s determination memorandums.


                        In addition to questioning the approval of cash salaries greater than $500,000
                        for one-third of the employees, SIGTARP questions whether OSM is
                        following the spirit of its $500,000 cash salary guideline. Notably, in addition
                        to approving 23 employees to receive cash salaries of more than $500,000,
                        OSM allowed 25 employees to have cash salaries exactly at the $500,000
                        guideline. Accordingly, OSM allowed cash salaries of $500,000 or more for
                        70% (48 of 69) of Top 25 employees at AIG, GM, and Ally. OSM allowed
                        cash salaries of $450,000 or more for 94% (65 of 69) of Top 25 employees at
                        AIG, GM, and Ally.

                        Lacking Criteria and an Effective Decision-Making Process,
                        Treasury Risks Continuing To Give Employees of Bailed-Out
                        Companies Excessive Cash Compensation Without Good Cause

                        Despite SIGTARP warning in its January 2012 report on executive
                        compensation that OSM did not establish meaningful criteria for good cause


SIGTARP 13-001                                                                                      January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES               19




                  for a cash salary of more than $500,000 and that OSM approved cash salaries
                  greater than $500,000 with limited justifications, Treasury did not establish
                  criteria in response to SIGTARP’s report. After SIGTARP’s report, when
                  SIGTARP asked the Acting Special Master what criteria OSM used to
                  determine good cause for cash salaries exceeding $500,000, she told
                  SIGTARP that Treasury’s Interim Final Rule is OSM’s criteria. However, the
                  IFR does not contain criteria for limiting cash salaries. Unless OSM
                  establishes and follows meaningful criteria to determine good cause to pay an
                  employee more than $500,000 in cash, OSM risks continuing to give
                  employees of bailed-out companies excessive cash compensation without
                  good cause and cloaking its decisions in vague generalities.

                  Similar to OSM’s explanations for approving pay raises, OSM’s
                  “justifications” for excessive cash salaries parrot what each company asserted
                  to OSM. Some of the companies’ justifications of good cause for a $500,000
                  cash salary were in oral statements to OSM officials.

                  By using only Treasury’s 60-day process to set pay packages for Top 25
                  employees, OSM missed an opportunity to limit the employee cash salaries to
                  $500,000. Acting Special Master Geoghegan told SIGTARP that OSM does
                  not perform an independent analysis, instead choosing to use data and
                  assertions supplied by the companies. For example, if a company claims that
                  an employee should be paid cash salary of more than $500,000 because of
                  added duties, OSM does not look to see what duties the employee previously
                  had in comparison. Acting Special Master Geoghegan explained to SIGTARP
                  that, if OSM worked along those lines, it would take a year to conduct the
                  determinations, but OSM asks for the information in January and cannot ask
                  for the information before then because OSM needs the companies to finish
                  the year. Acting Special Master Geoghegan said OSM does not spend that
                  much time on a “small decision” like whether to continue to give an
                  individual $600,000.

                  The Acting Special Master’s explanation raises concerns as to why OSM does
                  not perform substantive analysis related to the Top 25 employees earlier in the
                  year, particularly because most of the Top 25 employees stayed the same from
                  2011. Instead, OSM officials have chosen to conduct all of their work for
                  their primary mission of setting Top 25 pay within the 60-day process. OSM
                  could have been identifying specific Top 25 employees’ duties and value to
                  the company throughout the year, and then use the end of the year information
                  in the company’s proposals to supplement their existing information.

                  More importantly, the Acting Special Master appears to have no desire to dig
                  into a company’s justification of good cause for cash salaries greater than


SIGTARP 13-001                                                                   January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                            20




                       $500,000. For example, in 2012, OSM approved cash salaries exceeding
                       $500,000 for 19 of 23 employees with the explanation that the same number
                       had been approved the previous year. The Acting Special Master told
                       SIGTARP that it would be normal for these individuals in the Top 25 to
                       expect more than $500,000 in cash salary, and said there was no doubt that
                       these people are making a large amount of money. The Acting Special Master
                       told SIGTARP, “OSM would not normally reopen from scratch a
                       determination that it made when you have executive compensation
                       determinations from year to year” because it would be “incredibly disruptive,”
                       and it was relatively easy for OSM to keep things the way they were. She
                       described taking an extra two hours to look at a person’s justification of added
                       responsibility as a waste of time. She said that she did not think that when the
                       $500,000 guideline was formulated, it would take an “independent little
                       project” to determine when someone should go above $500,000. The Acting
                       Special Master told SIGTARP that OSM is not the compensation committee.

                       The Acting Special Master told SIGTARP that a lot of pay determinations
                       were based on prior years pay, and absent a change in circumstances, OSM
                       would not change pay. However, in 2012, Treasury approved cash salaries
                       greater than $500,000 for GM’s troubled European unit, even though that unit
                       experienced significant financial losses and dragged down the company’s
                       earnings.16 OSM approved one employee’s salary at $600,000, the same as in
                       2011, but awarded him an increase in stock salary of $100,000 while noting
                       that “losses in Europe are a significant challenge.” OSM also approved a cash
                       salary of $600,000, the same as in 2011, for one ResCap employee, and a cash
                       raise from $500,000 to $550,000 for another ResCap employee.

                       Treasury Awarded Cash Salaries Exceeding $500,000 for Five
                       Additional Employees, Four of Whom Exceeded the
                       50th Percentile

                       In 2012, Treasury approved cash salaries exceeding $500,000 for five
                       additional employees. Because SIGTARP, in its prior evaluation, had already
                       assessed OSM’s decisions to approve salaries in excess of $500,000 for
                       18 employees of the 23 paid $500,000+ in cash, SIGTARP evaluated the five
                       additional employees:


16
     Stephen J. Girsky, Vice Chairman, Corporate Strategy, Business Development, Global Product Planning and
     Global Purchasing and Supply Chain. In 2011, OSM approved an $800,000 cash salary for David N. Reilly, GM
     Vice President and President, GM Europe. However, he retired on April 1, 2012, and did not receive an OSM
     2012 determination.



SIGTARP 13-001                                                                               January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES               21




                     SIGTARP found that four of the five employees who received cash
                      salaries greater than $500,000 exceeded OSM’s guideline to target cash
                      salaries at the 50th percentile by an aggregate $654,000.

                     OSM approved a salary for a GM employee of $950,000, which on its face
                      was excessive, when compared to OSM’s $500,000 cash salary guideline.
                      The salary was $316,000 higher than the median cash salary of the
                      employee’s peers. The employee came to GM in 2010 as part of an
                      acquisition. The employee’s employment contract stipulated that his
                      compensation, upon transitioning to GM, is subject to the Special Master’s
                      restrictions. However, instead of limiting the employee’s salary to
                      $500,000, or to the 50th percentile ($634,000), OSM approved the
                      employee’s cash salary, set by the subsidiary before GM acquired it.
                      OSM did not justify why an individual’s pay at an acquired subsidiary is
                      relevant or why the pay could not be modified in 2012, given that the
                      position was covered under the restrictions of the Acting Special Master.

                     OSM approved a salary for a GM employee of $580,000, which exceeded
                      the 50th percentile by $160,000. OSM told SIGTARP that the employee
                      was considered by GM to be a retention risk and was considered crucial in
                      managing GM’s supply chain. OSM provided no further analysis.

                     OSM’s written justification documenting its rationale states that there was
                      good cause for a $650,000 cash salary for an AIG employee, in part
                      because of a counteroffer agreement between AIG and the employee in
                      December 2008, when the employee was reportedly offered a job with an
                      AIG competitor. However, OSM did not explain why a purported
                      agreement at AIG from 2008 would justify a 2012 cash salary that
                      exceeded the median cash salary of the employee’s peers by $135,000.

                     OSM approved a cash salary for an Ally employee of $550,000, which
                      exceeded the 50th percentile by $43,000. OSM’s justification stated that
                      Ally considered the employee to be critical. However, OSM did not
                      provide an analysis or show it performed due diligence to substantiate
                      Ally’s assertion.

                  In addition, for one employee who received a cash salary of $600,000 in 2011,
                  OSM approved an additional $50,000 in cash in 2012. When asked why the
                  employee received the raise, the Acting Special Master told SIGTARP that
                  GM wanted to retain the employee and “do a little extra for him.”




SIGTARP 13-001                                                                   January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                                  22




                      Treasury Did Not Use Incentive Compensation Tied to
                      Performance Metrics for Approximately 50% of the Top 25
                      Employees

                      Acting Special Master Geoghegan did not use incentive compensation (long-
                      term restricted stock) contingent on meeting performance standards for half of
                      the executives, as requested by the companies.

                      By removing long-term restricted stock, Acting Special Master Geoghegan
                      removed the tie of individual compensation to long-term company success for
                      several employees. This is different from how OSM, under former Special
                      Master Feinberg used long-term restricted stock contingent on the employee
                      receiving specific performance criteria in order to tie individual compensation
                      to long-term company success.

                      Treasury’s Rule, under which OSM operates, provides that an appropriate
                      portion of the compensation should be performance based over a relevant
                      performance period, determined through tailored metrics that encompass
                      individual performance and/or the performance of the TARP recipient or a
                      relevant business unit, taking into consideration specific business objectives.17

                      Special Master Feinberg testified before the U.S. House of Representatives
                      Committee on Financial Services, “Compensation of key officials at these
                      companies that owe so much to the American taxpayer should depend on
                      performance…What you earn, other than your base cash salary, should
                      depend on long-term performance, objective metrics...” Feinberg testified
                      before the House Committee on Oversight and Government Reform that OSM
                      offered up the notion of long-term, incentive-based stock that cannot be sold
                      until and unless the taxpayers get their money back, stating, “That’s the
                      formula we tried to use to correct what we thought in our report were the
                      problems with executive compensation practices in these seven companies.”

                      Despite Treasury’s Rule calling for appropriate allocations of pay to be
                      performance based, and as illustrated in Table 4 below, 34 Top 25 employees
                      did not receive long-term restricted stock in 2012 (9 AIG employees, 4 GM
                      employees, and all 21 of Ally’s Top 25 employees). After making her
                      decisions on pay in April 2012, she subsequently removed long term

17
  Long-term restricted stock may be granted only if the employee meets performance criteria and generally only if
an employee continues to provide services to the company for three years following the date of grant. The awards
are redeemable only in 25% installments for each 25% of TARP obligations that are repaid. Unlike long-term
restricted stock, stock salary immediately vests upon grant, and may be redeemed in three equal annual installments.



SIGTARP 13-001                                                                                   January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                23




                  restricted stock for all of Ally’s Top 25 employees on the basis that the
                  company’s subsidiary ResCap, had filed bankruptcy, and that the company
                  had announced it was exploring strategic alternatives such as a possible sale of
                  international operations. However, only three employees in Ally’s Top 25
                  worked at ResCap and OSM knew in April that ResCap was planning a
                  restructuring. In addition, both GM and AIG were selling international
                  operations.




SIGTARP 13-001                                                                   January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                           24




                    TABLE 4
                    EMPLOYEES WHO RECEIVED NO LONG-TERM RESTRICTED STOCK
                    UNDER THE 2012 DETERMINATIONS
                                                                          2011            2012
                                                                    Long-Term       Long-Term
                    Company                    Employee              Restricted      Restricted
                    Name                         ID #                    Stock           Stock
                    AIG                              1                        $0            $0
                    AIG                           133                          0             0
                    AIG                           206                 2,000,000              0
                    AIG                           208                         [1]            0
                    AIG                           261                          0             0
                    AIG                           265                          0             0
                    AIG                          1076                          0             0
                    AIG                          1087                 1,200,000              0
                    AIG                          1105                         [1]            0
                    GM                           4859                 2,000,000              0
                    GM                           2986                 1,165,000              0
                    GM                           3348                   250,000              0
                    GM                           4894                          0             0
                    Ally                       280677                 1,500,000              0
                    Ally                       102645                 1,729,119              0
                    Ally                       104428                   986,989              0
                    Ally                       105336                   750,000              0
                    Ally                       141296                   801,826              0
                    Ally                       197253                 1,162,163              0
                    Ally                       265967                 1,393,678              0
                    Ally                       272446                   666,000              0
                    Ally                       339212                 2,667,816              0
                    Ally                       354392                   724,943              0
                    Ally                       391076                   780,919              0
                    Ally                       468046                         [1]            0
                    Ally                       513416                         [1]            0
                    Ally                       546145                 1,215,760              0
                    Ally                       567303                   803,414              0
                    Ally                       682168                 1,841,495              0
                    Ally                       707713                   951,913              0
                    Ally                       725547                   868,812              0
                    Ally                       805106                 1,300,000              0
                    Ally                       931656                   836,958              0
                    Ally                       960277                 1,000,000              0
                    Source: SIGTARP analysis of OSM’s determination memorandums.
                    [1] These employees were not among the Top 25 in 2011.




SIGTARP 13-001                                                                               January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES              25




                  Acting Special Master Geoghegan told SIGTARP that there are no criteria for
                  taking away long-term restricted stock. When asked about individuals who
                  did not receive long-term restricted stock in 2012, the Acting Special Master
                  explained to SIGTARP that in general, when OSM takes away long term
                  restricted stock, it is because the individual may be very senior, may wish to
                  retire, or will be leaving. Referring to one employee, the Acting Special
                  Master told SIGTARP that long-term restricted stock would be of no value
                  unless the employee would stay at the company. She explained that the
                  companies would tell OSM if they thought long-term restricted stock was
                  inappropriate for an employee and that OSM’s decision usually starts with the
                  company’s request. The Acting Special Master told SIGTARP that these were
                  employees who had large amounts of long-term restricted stock, but none in
                  2012 because the firms do not expect these employees to remain at the
                  company for the next two years and the employee cannot cash in the stock for
                  two years.

                  The Acting Special Master told SIGTARP that senior employees who are
                  retiring do not benefit from long-term restricted stock and it is a burden to
                  compensate them with long-term restricted stock. She explained, when
                  talking about someone very senior, such as a company executive, it is not wise
                  to give them large chunks of compensation that has no value. However, as
                  stated earlier, Treasury’s Rule, under which OSM operates, provides that the
                  appropriate allocation and the appropriate performance metrics may be
                  different for different positions and for different employees, but generally a
                  significant portion of total compensation should be performance-based
                  compensation, and generally that portion should be greater for those in
                  positions exercising higher levels of responsibility.




SIGTARP 13-001                                                                  January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                26




                  In 2012, AIG, GM, and Ally Failed To Take into Account Their
                  Exceptional Situations that Resulted in Taxpayer Bailout

                  SIGTARP previously reported that in proposing high pay packages based on
                  historical pay prior to their bailouts, the TARP companies failed to take into
                  account the exceptional situations they had gotten themselves into that
                  necessitated the need for financial rescues. In evaluating OSM’s 2012
                  determinations, SIGTARP found that firms again failed to appreciate the
                  extraordinary assistance provided by U.S. taxpayers.

                  Companies continue citing employee retention to justify excessive pay.
                  SIGTARP’s prior report said that, given OSM’s overriding goal of getting
                  TARP companies to repay the Government, the seven companies had leverage
                  over OSM by proposing and negotiating for excessive pay packages. The
                  report also said that the companies warned then-Special Master Feinberg that
                  if he did not provide competitive pay packages, top executives would leave
                  the companies. Feinberg found the claims dubious, and even reported that
                  despite such claims, 85% of the executives who threatened to leave in 2009
                  remained at their companies in 2010. In 2012, the companies also used
                  retention as a justification for high pay. For 10 employees, the companies
                  asked OSM to approve cash salaries, ranging from $610,000 to $1.4 million,
                  in part to keep the executives from departing the companies.

                  AIG:
                  SIGTARP previously reported that AIG pushed for excessive raises in cash
                  salaries and pushed against pay in AIG stock. SIGTARP’s report laid out how
                  AIG CEO Benmosche felt that OSM penalized AIG with very low salaries.
                  SIGTARP also reported that AIG proposed not to receive any incentive
                  awards in long-term restricted stock tied to achievement of performance
                  measures and that Benmosche enlisted the help of other Treasury officials,
                  asking them to talk to Feinberg.

                  AIG’s failure to take into account the exceptional situation it was in is echoed
                  by comments by AIG CEO Benmosche to New York Magazine in 2012:

                         …it wasn’t a free lunch…we now have succeeded in getting the Fed
                         back all of their money, and we’re close to getting the Treasury paid
                         back. And do you know…neither of them have ever said Thank you?
                         We have done all the right things. Somebody should say, by golly,
                         those AIG people made a promise and they are living up to a promise!
                         We’re left with a major part of the economy in America; they’re going
                         to make a profit on top of everything else they’ve got…God bless
                         America. And God bless AIG. And God bless Tiny Tim.


SIGTARP 13-001                                                                    January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                                27




                        In 2011 and 2012, AIG’s pay proposals reflect the company’s request for
                        excessive compensation. AIG’s CEO continued to receive the single largest
                        Treasury-approved pay package of any employee – $10.5 million. In 2011,
                        the Acting Special Master removed Benmosche’s incentive stock tied to
                        meeting performance criteria, shifting it to stock salary that immediately vests.
                        In 2012, she removed long-term restricted stock for two other AIG Top 25
                        employees. Moreover, six other AIG Top 25 employees’ pay packages did
                        not contain long-term restricted stock. Nine of the 16 Treasury-approved pay
                        packages of $5 million or more were for AIG employees. Treasury approved
                        pay from $3 million to less than $5 million for 12 AIG employees, the largest
                        number of pay packages for any employees of the 3 companies. Only one
                        AIG Top 25 employee was paid less than $2 million in 2012.

                        Meanwhile, even though taxpayers are still owed a combined $36.2 billion18
                        for the investments in GM and Ally, both companies have attempted to get
                        around the rules established to protect taxpayers by limiting excessive
                        compensation for companies that are partially Government owned, and both
                        companies have failed to appreciate how much pay they have already received
                        under OSM.

                        GM:
                        GM officials complained about the pay restrictions in their 2012 proxy
                        statement and in a meeting with the Treasury Secretary. In March 2012,
                        weeks before the Acting Special Master set the 2012 pay packages, GM CEO
                        Akerson met with Treasury Secretary Geithner, without the Acting Special
                        Master, asking Treasury to release GM from OSM’s pay limits by lifting the
                        more onerous TARP exceptional assistance pay restrictions that led to OSM’s
                        jurisdiction.19 Secretary Geithner rejected GM’s request. On April 26, 2012,
                        GM filed a proxy statement stating that pay for GM’s CEO was not high
                        enough and that the TARP pay restrictions restrict GM from paying its
                        executives sufficiently. In the proxy statement, GM complained about being
                        limited to long-term restricted stock for incentive pay, rather than cash
                        bonuses, and claimed that its inability under TARP to offer a competitive mix
                        of cash and stock became an area of increasing concern. In particular, GM
                        noted concerns with using restricted stock for several senior executives,
                        including CEO Akerson, the chief financial officer, an executive of GM
                        Europe, and others. GM noted in the proxy statement that it had discussed its

18
     As of December 31, 2012.
19
     Companies remain under OSM’s jurisdiction as long as they are receiving TARP exceptional assistance.
     According to the proxy statement, CEO Akerson’s total compensation for 2011 “falls in the lowest quartile of
     compensation for CEOs of comparable companies” and that the TARP pay restrictions are keeping GM from
     delivering compensation for critical personnel in a manner that will drive sustained long-term growth.



SIGTARP 13-001                                                                                    January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES              28




                  concerns with the Acting Special Master. When OSM set pay packages for
                  GM for 2012, it removed the long-term restricted stock from four employees’
                  pay packages, including the pay package of CEO Akerson.

                  In February 2012, GM proposed that nine employees receive cash salary
                  increases, one of which was a cash salary increase from $600,000 to $900,000
                  for a GM Europe employee, despite that unit’s losses. OSM approved
                  approximately 70% of GM’s Top 25 employees to receive cash salaries
                  exceeding market medians and almost 60% to receive total pay packages
                  worth more than the 50th percentile. OSM also removed from GM CEO
                  Akerson’s pay package incentive compensation tied to meeting performance
                  criteria, shifting the same amount to stock salary that is earned immediately.

                  Ally:
                  SIGTARP previously reported that Ally’s CEO complained to SIGTARP
                  about reducing the cash salary of one of his employees to $500,000. Ally
                  executives pushed for high pay for their employees, despite knowing that
                  then-Special Master Feinberg was concerned that most of Ally’s Top 25
                  employees contributed to Ally’s need for a bailout.

                  Despite OSM having approved Ally’s request that approximately 90% of
                  Ally’s Top 25 employees receive total pay packages exceeding the 50th
                  percentile, Ally requested a cash salary increase of $50,000 for an employee
                  of ResCap, and a $91,000 cash salary increase for another Ally employee,
                  both of which OSM approved. ResCap asked a bankruptcy judge to approve
                  two compensation plans. The judge denied one of the compensation plans
                  that provided for the award of between $4.1 million to $7 million in incentive
                  payments for 17 ResCap employees. However, the judge approved a retention
                  plan making 174 ResCap employees eligible to receive an aggregate
                  $10.8 million in retention payments.




SIGTARP 13-001                                                                  January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                            29




                     Conclusions and Recommendations
                     While taxpayers struggle to overcome the recent financial crisis and look to
                     the U.S. Government (“Government”) to put a lid on compensation for
                     executives of firms whose missteps nearly crippled the U.S. financial system,
                     the U.S. Department of the Treasury (“Treasury”) continues to allow
                     excessive executive pay. American International Group, Inc. (“AIG”), Ally
                     Financial Inc. (“Ally”), and General Motors Corporation (“GM”) executives
                     continue to rake in Treasury-approved multimillion-dollar pay packages that
                     often exceed guidelines from the Office of the Special Master for TARP
                     Executive Compensation (“OSM”).20

                     The Office of the Special Inspector General for the Troubled Asset Relief
                     Program (“SIGTARP”) reported in January 2012 that the Special Master
                     could not effectively rein in excessive compensation at companies that
                     received exceptional assistance from the Troubled Asset Relief Program
                     (“TARP”) from 2009 through 2011: The Special Master was under the
                     constraint that his most important goal was to get the companies to repay and
                     exit TARP, a goal that gave the companies leverage.21 Treasury’s formal
                     response to SIGTARP’s report came from Acting Special Master Patricia
                     Geoghegan, who stated that “OSM has succeeded in achieving its mission” by
                     reducing pay for the Top 25 executives at these companies from the pay they
                     received prior to TARP.

                     Treasury’s success should not be judged based on reductions in pay from a
                     time when these companies stood on their own without taxpayer assistance. If
                     that is the definition of success, the work of OSM was effectively over when
                     Special Master Kenneth R. Feinberg set the first pay packages in 2009, and
                     there is no longer a need for a Special Master. Rather, Treasury’s success
                     should be based on whether Treasury awards appropriate pay for executives
                     while taxpayers continue to fund these companies’ bailouts.

                     SIGTARP found that once again, in 2012, Treasury failed to rein in excessive
                     pay. In 2012, OSM approved pay packages of $3 million or more for 54% of
                     the 69 Top 25 employees at AIG, GM, and Ally – 23% of these top executives

20
    OSM’s primary responsibility is to set pay packages for the Top 25 employees at companies whose amount and
   nature of their TARP bailout were labeled “exceptional.” At the end of 2012, only three companies receiving
   exceptional assistance under TARP remained: AIG, GM, and Ally.
21
    SIGTARP previously reported that, for 2009 through 2011, the Special Master approved multimillion-dollar
   compensation packages for Top 25 employees and approved pay packages worth $5 million or more over the 2009
   to 2011 period for 49 individuals of 7 companies.



SIGTARP 13-001                                                                              January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                           30




                        (16 of 69) received Treasury-approved pay packages of $5 million or more,
                        and 30% (21 of 69) received pay ranging from $3 million to $4.9 million.
                        Treasury seemingly set a floor, awarding 2012 total pay of at least
                        $1 million.22

                        Taxpayers deserve transparency on Treasury’s decisions to award
                        multimillion-dollar pay packages to executives at companies that had been
                        stuck in TARP for four years. First, even though OSM set guidelines aimed at
                        curbing excessive pay, SIGTARP previously warned that Treasury lacked
                        robust criteria, policies, and procedures to ensure those guidelines are met.
                        Treasury made no meaningful reform to its processes. Second, absent robust
                        criteria, policies, and procedures to ensure its guidelines were met, OSM’s
                        decisions were largely driven by the pay proposals of the same companies that
                        historically, and again in 2012, proposed excessive pay. Third, with the
                        companies exercising significant leverage, the Acting Special Master rolled
                        back OSM’s application of guidelines aimed at curbing excessive pay.

                        Despite SIGTARP’s previous warning that Treasury lacked robust criteria,
                        policies, and procedures to ensure that Treasury’s guidelines to curb
                        excessive pay are met, Treasury made no meaningful reform to its
                        processes.

                        Former Special Master Feinberg developed guidelines aimed at curbing
                        excessive pay and reducing excessive risk taking. Treasury Secretary
                        Timothy F. Geithner testified that executive compensation played a material
                        role in causing the financial crisis because it encouraged excessive risk taking.
                        Feinberg previously told SIGTARP that he limited cash salaries to $500,000
                        and shifted compensation more toward stock to reduce excessive risk and
                        keep employees’ “skin in the game.” Feinberg also previously told SIGTARP
                        that he targeted total compensation at the 50th percentile for similarly situated
                        employees at similarly situated entities to keep the companies competitive.
                        Feinberg testified before Congress that he used long-term restricted stock tied
                        to performance metrics to correct problems with executive compensation
                        practices at these companies.

                        Although SIGTARP previously reported serious problems with OSM’s pay-
                        setting process and recommended fixes for those problems, Treasury failed to
                        take any meaningful action in response. SIGTARP reported that OSM
                        approved multimillion-dollar compensation packages, trying to shift these

22
     Only one employee received Treasury-approved pay under $1 million. Treasury awarded this AIG employee a
     guaranteed cash salary of $700,000.



SIGTARP 13-001                                                                               January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES               31




                  packages away from large cash salaries and toward stock, but that OSM did
                  not have any criteria for applying its guidelines. SIGTARP reported that
                  OSM awarded cash salaries greater than $500,000 without OSM
                  substantiating good cause. The only action Treasury took in response to
                  SIGTARP’s findings and recommendations was to document its use of market
                  data on the 50th percentile and, in an eight-page spreadsheet, document
                  limited explanations for cash salaries exceeding $500,000.

                  Despite SIGTARP’s previous warnings, Treasury did not establish meaningful
                  criteria for having good cause to award cash salaries greater than $500,000.
                  In 2012, OSM did not independently analyze the basis for awarding cash
                  salaries greater than $500,000. Without this analysis, OSM put itself in the
                  position of relying heavily on justifications by the companies – companies
                  that historically have pushed back on the Special Master’s limitations on
                  compensation, in particular, on cash salaries. By not making substantive
                  changes, Treasury is clinging to the status quo of awarding multimillion-dollar
                  pay packages.

                  OSM’s decisions were largely driven by the companies’ pay proposals, the
                  same companies that historically, and again in 2012, proposed excessive
                  pay, failing to appreciate the extraordinary situation they were in, with
                  taxpayers funding and partially owning them.

                  Many believe that AIG, Ally, and GM would not exist except for the
                  Government assistance each so desperately requested. SIGTARP previously
                  reported that, given OSM’s overriding goal to get the companies to repay
                  TARP, the companies had significant leverage over OSM by proposing and
                  negotiating for excessive pay, warning that if OSM did not provide
                  competitive pay packages, top executives would leave and go elsewhere. This
                  was also the case for 2012 pay. For 2012, AIG negotiated for Treasury-
                  approved pay of approximately $108 million for 25 employees, GM
                  negotiated for Treasury-approved pay of $64 million for 23 employees, and
                  Ally negotiated for Treasury-approved pay of approximately $78 million for
                  21 employees.

                  By proposing and negotiating for excessive 2012 pay, these executives
                  continue to lack an appreciation for their extraordinary situations and fail to
                  view themselves through the lenses of companies substantially owned by the
                  Government. Other company actions or statements in 2012 shed light on the
                  companies’ lack of appreciation for their extraordinary situation. AIG CEO
                  Robert Benmosche, who has raked in the most compensation of any employee
                  under OSM – $42 million in four years, with a cash salary exceeding by 200%
                  the median salary of his peers – was quoted in New York Magazine as stating


SIGTARP 13-001                                                                   January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES              32




                  that neither Treasury nor the Federal Reserve Board has thanked him for
                  repaying AIG’s rescue package. GM CEO Dan Akerson asked Treasury
                  Secretary Geithner to relieve GM from OSM’s pay restrictions, a move
                  Akerson said would ultimately benefit taxpayers, and issued a proxy statement
                  complaining about the pay restrictions. Ally executives sought pay raises for
                  the president of its subsidiary, Residential Capital, LLC (“ResCap”), despite
                  the fact that ResCap filed bankruptcy in 2012 and sought extra pay for
                  ResCap employees from the bankruptcy court.

                  Absent robust policies, procedures, or criteria to implement OSM’s
                  guidelines, in 2012, the Acting Special Master approved compensation largely
                  driven by the three companies’ proposals. For example, OSM awarded
                  $6.2 million in pay raises to 18 employees. Treasury approved a $1 million
                  pay raise for the CEO of AIG’s Chartis subsidiary, a $200,000 pay raise for a
                  ResCap employee – weeks before ResCap filed for bankruptcy – and a
                  $100,000 pay raise for an executive at GM’s European unit, despite that unit
                  experiencing significant losses. OSM’s written explanations for the pay raises
                  lacked substance, largely parroting what each company asserted to OSM
                  without any independent analysis by OSM. By requesting these pay raises,
                  the companies failed to appreciate that they continued to be funded by
                  taxpayers.

                  With the companies having significant leverage, the Acting Special Master
                  appears to have rolled back OSM’s application of guidelines.

                  50th Percentile Guideline: In 2012, OSM did not follow its own guidelines
                  aimed at curbing excessive pay by having total compensation generally not
                  exceed the 50th percentile for similarly situated employees. Treasury
                  awarded total pay packages exceeding the 50th percentile by approximately
                  $37 million for approximately 63% of the Top 25 employees of AIG, GM,
                  and Ally. The Acting Special Master appears to have rolled back the
                  50th percentile guideline, telling SIGTARP, for example, that she set total
                  compensation for all of Ally’s Top 25 employees between the 50th and 75th
                  percentiles.

                  Cash Salaries Limited to $500,000: OSM’s lack of meaningful criteria and
                  independent analysis contributed to OSM’s rolling back its guideline to limit
                  cash salaries to $500,000. In 2012, OSM approved cash salaries greater than
                  $500,000 for one-third of the employees within OSM’s pay-setting
                  jurisdiction (23 of 69 Top 25 employees at AIG, GM, and Ally).

                  Acting Special Master Geoghegan is not following former Special Master
                  Feinberg’s final recommendation that she “limit guaranteed cash,” “demand a


SIGTARP 13-001                                                                  January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                33




                  performance component for most compensation,” and “hold the line on cash
                  salaries.” Feinberg testified before Congress that “…base cash salaries should
                  rarely exceed $500,000, and only then for good cause shown, and should be,
                  in many cases, well under $500,000…” However, Acting Special Master
                  Geoghegan told SIGTARP there is no cash salary cap, and $500,000 is a
                  “discretionary guideline that is useful,” but there is no law or regulation that
                  says she needs “a memo to permit a company to go above $500,000.”

                  Never have there been so many exceptions to the $500,000 cash salary
                  guideline for the number of people under the Acting Special Master’s
                  jurisdiction as there were in 2012. The Acting Special Master increased the
                  number of employees with Treasury-approved cash salaries greater than
                  $500,000 from 22 employees in 2011 to 23 employees in 2012. The number
                  has quadrupled from six employees in 2009, despite the fact that the number
                  of companies OSM reviews decreased as companies repaid and exited TARP.

                  In addition to questioning the approval of cash salaries in excess of $500,000
                  for one-third of the employees, SIGTARP questions whether OSM is
                  following the spirit of its $500,000 cash salary guideline. Although OSM
                  guidelines target salaries greater than $500,000, notably in 2012, OSM
                  allowed 25 employees to have cash salaries exactly at the $500,000 limit
                  (falling outside OSM’s guideline by $1). Accordingly, OSM allowed cash
                  salaries of $500,000 or more for 70% (48 of 69) of Top 25 employees at AIG,
                  GM, and Ally. OSM allowed cash salaries of $450,000 or more for 94% (65
                  of 69) of Top 25 employees at AIG, GM, and Ally. In stark contrast, the 2011
                  median household income of U.S. taxpayers who fund these companies was
                  approximately $50,000.

                  Similar to OSM’s explanations for approving pay raises, OSM’s
                  “justifications” for good cause for cash salaries to exceed $500,000 largely
                  parrot what each company asserted orally or in writing to OSM. Acting
                  Special Master Geoghegan told SIGTARP that OSM does not perform an
                  independent analysis, in part due to the 60-day constraint to issue a decision
                  on the companies’ proposals (which come in February). OSM uses data
                  supplied by the companies, talks to company officials and other Treasury
                  officials, and looks at publicly available data. Because many of the same
                  employees remained in the Top 25 from 2011 to 2012, OSM could have
                  analyzed those employees’ responsibilities and value to the company
                  throughout the year, and then could have used the end of the year information
                  to supplement its existing information. OSM should not limit itself to perform
                  its primary mission from February to early April, when it issued its
                  determination memorandums. By using only the 60 days, OSM missed an



SIGTARP 13-001                                                                   January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                 34




                  opportunity to conduct an independent analysis that could have limited pay
                  raises and high cash salaries.

                  More importantly, the Acting Special Master appears to have no desire to
                  independently analyze whether good cause exists to award an employee a cash
                  salary greater than $500,000. The Acting Special Master told SIGTARP that
                  it would be “utterly normal” for these individuals in the Top 25 to expect over
                  $500,000 in cash salary. That might be true if the companies had not been
                  bailed out and were not still significantly owned by taxpayers. Acting Special
                  Master Geoghegan said OSM “does not spend that much time on a small
                  decision like whether to continue to give this person $600,000.” She
                  described taking an extra two hours to look at this person’s pay justification to
                  see whether there was “added responsibility” as a “waste of time.” She said
                  she did not think that when the $500,000 guideline was formulated, it would
                  take an “independent little project” to determine when someone should go
                  above $500,000. If the pay czar is not even willing to independently analyze
                  high cash salaries for 23 employees, who else will protect taxpayers?

                  The Acting Special Master told SIGTARP that OSM would not normally
                  reopen executive compensation from year to year because it would be
                  disruptive, and it is “relatively easy for OSM to keep things the way they
                  were.” The Acting Special Master largely based her decisions on prior years’
                  pay, telling SIGTARP that OSM would not change pay absent a change in
                  circumstances. However, even where there was a negative change such as
                  ResCap filing bankruptcy or GM Europe suffering significant losses, OSM
                  did not reduce the compensation for the employees in charge of those entities.

                  Long-Term Restricted Stock: By removing long-term restricted stock from
                  some executives’ pay and using it only in half of the pay packages, the Acting
                  Special Master is effectively removing a key OSM guideline aimed at
                  reducing excessive risk by tying individual compensation to long-term
                  company success. She also removed long-term restricted stock for senior
                  executives, including the CEOs of AIG, GM, and Ally, calling it “a burden” to
                  compensate them with long-term restricted stock “that has no value.”
                  However, Treasury’s Rule states that the portion of performance-based
                  compensation compared to total compensation should be greater for positions
                  that exercise high levels of responsibility. After making her decisions on pay
                  in April 2012, she subsequently removed long-term restricted stock for all of
                  Ally’s Top 25 employees on the basis that the company’s subsidiary, ResCap,
                  had filed bankruptcy, and that the company had announced it was exploring
                  strategic alternatives such as a possible sale of international operations.
                  However, only three employees in Ally’s Top 25 worked at ResCap and OSM



SIGTARP 13-001                                                                    January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES               35




                  knew in April that ResCap was planning a restructuring. In addition, both
                  GM and AIG were selling international operations.

                  The guidelines originally created by former Special Master Feinberg were
                  aimed at fixing the material role executive compensation played in causing the
                  financial crisis by encouraging excessive risk taking. By not holding the line
                  on large cash salaries (awarding $500,000 or more to 70% of the executives
                  under OSM’s pay-setting jurisdiction, and allowing 94% of employees to be
                  paid cash salaries of $450,000 or more), and removing long-term, incentive-
                  based stock as requested by the companies, OSM is effectively relinquishing
                  some of OSM’s authority to the companies, which have their own best
                  interests in mind. The Acting Special Master told SIGTARP that OSM is not
                  the compensation committee. SIGTARP agrees – the compensation
                  committee looks out for the interest of the company. The Office of the
                  Special Master’s job is to look out for the interests of taxpayers, which it
                  cannot do if it continues to rely to a great extent on the companies’ proposals
                  and justifications without conducting its own independent analysis.

                  There are two lessons to be learned from OSM’s 2012 pay-setting process and
                  decisions:

                  First, guidelines aimed at curbing excessive pay are not effective, absent
                  robust policies, procedures, or criteria to ensure that the guidelines are met.
                  This is the second report by SIGTARP to warn that the Office of the Special
                  Master, after four years, still does not have robust policies, procedures, or
                  criteria to ensure that pay for executives at TARP exceptional assistance
                  companies stays within OSM’s guidelines. Perhaps the Acting Special Master
                  thinks that OSM has already succeeded in achieving its mission by limiting
                  compensation for these executives from pre-TARP levels or believes that
                  OSM’s existing processes are sufficient. The question is whether it is
                  sufficient for taxpayers. Treasury continues to award excessive pay packages,
                  including large guaranteed cash salaries. Meaningful reform is still possible
                  because GM and Ally remain under OSM’s jurisdiction. Without meaningful
                  reform, including independent analysis by OSM, Treasury risks that TARP
                  companies could potentially misuse taxpayer dollars for excessive executive
                  compensation.

                  Second, while historically the Government has not been involved in pay
                  decisions at private companies, one lesson of this financial crisis is that
                  regulators should take an active role in monitoring and regulating factors that
                  could contribute to another financial crisis, including executive compensation
                  that encourages excessive risk taking. According to OSM, OSM’s authority
                  to set pay for AIG executives has ended. SIGTARP previously reported that


SIGTARP 13-001                                                                   January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                 36




                  AIG CEO Benmosche told SIGTARP that the Special Master’s practices
                  would have no lasting impact. He also said, however, that pay and
                  performance must be linked, and if the majority of income is fixed, or
                  guaranteed, then pay is not linked to performance. Given AIG’s considerable
                  pushback on OSM’s limitations on pay as reported in SIGTARP’s prior
                  report, it is highly likely that AIG could return to past compensation practices.
                  The responsibility shifts to the Federal Reserve Board to ensure that AIG does
                  not encourage excessive risk taking through compensation.




SIGTARP 13-001                                                                    January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES              37




                  Recommendations
                  SIGTARP recommends:

                  1. Each year, Treasury should reevaluate total compensation for those
                     employees at TARP exceptional assistance companies remaining in the
                     Top 25 from the prior year, including determining whether to reduce total
                     compensation.

                  2. To ensure that Treasury effectively applies guidelines aimed at curbing
                     excessive pay and reducing risk taking, Treasury should develop policies,
                     procedures, and criteria for approving pay in excess of Treasury
                     guidelines.

                  3. Treasury should independently analyze whether good cause exists to
                     award a Top 25 employee a pay raise or a cash salary over $500,000. To
                     ensure that the Office of the Special Master has sufficient time to conduct
                     this analysis, Treasury should allow OSM to work on setting Top 25 pay
                     prior to OSM’s receiving the company pay proposals, which starts the 60-
                     day timeline.

                  4. To be consistent with Treasury’s Interim Final Rule that the portion of
                     performance-based compensation compared to total compensation should
                     be greater for positions that exercise higher levels of responsibility,
                     Treasury should return to using long-term restricted stock for employees,
                     particularly senior employees such as CEOs.




SIGTARP 13-001                                                                  January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                38




                  Management Comments and
                  SIGTARP’s Response
                  Treasury provided an official written response to a draft of this report in a
                  letter dated January 25, 2013, which is produced in full in Appendix H.
                  OSM’s letter states, in part, that “Although we disagree with [SIGTARP’s]
                  findings and conclusions, OSM benefitted from the audit review.”

                  OSM’s response set forth what OSM considers its accomplishments since
                  2009. OSM stated that the draft report contained many inaccuracies, and that
                  it provided “500 comments and edits” showing that OSM “disagrees with
                  numerous issues” in the report. OSM responded that its decisions on 2012
                  pay were consistent with guidelines and Treasury’s Interim Final Rule. OSM
                  responded that it has criteria for not using long-term restricted stock.

                  SIGTARP considered OSM’s comments (which were significantly less than
                  500 and largely repetitive) and addressed the comments in the report, as
                  necessary and appropriate. OSM did not to point to specific factual
                  inaccuracies in the report; rather, OSM took a different view of the relevance
                  of the facts raised by SIGTARP and SIGTARP’s conclusions. For instance,
                  OSM did not have any written criteria on the use of long-term restricted stock
                  prior to setting pay for 2012. Instead, the Acting Special Master told
                  SIGTARP the reasons why she stopped using this important guideline for half
                  of the employees.

                  Treasury did not agree to implement any of the recommendations contained in
                  the report, only to consider the recommendations. As we concluded in the
                  report, OSM’s job is to look out for the interests of taxpayers, which it cannot
                  do if it continues to rely to a great extent on executive compensation proposals
                  and justifications submitted by the same companies that historically have
                  proposed excessive pay, without conducting its own robust, independent
                  analyses of appropriate pay for TARP exceptional assistance companies.




SIGTARP 13-001                                                                    January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES               39




Appendix A – Objectives, Scope, and Methodology

SIGTARP performed this evaluation under the authority of the Emergency Economic
Stabilization Act of 2008 and Public Law 110-343, as amended, which also incorporates the
duties and responsibilities of inspectors general under the Inspector General Act of 1978, as
amended. SIGTARP evaluated the Special Master’s decisions on executive compensation at
AIG, Ally, and GM, the three companies remaining in TARP that had received exceptional
financial assistance.23

Our specific objectives were to assess OSM’s process and determinations for 2012 pay packages
for the Top 25 most highly compensated AIG, Ally, and GM employees, and to evaluate OSM’s
progress in implementing SIGTARP’s recommendations set forth in SIGTARP evaluation report
12-001, “The Special Master’s Determinations for Executive Compensation of Companies
Receiving Exceptional Assistance Under TARP,” issued January 23, 2012.

The scope of the evaluation covered the Acting Special Master’s 2012 determination process and
included the Top 25 most highly compensated employees. The evaluation began in March 2012
and ended in January 2013, and was performed in Washington, D.C. To evaluate OSM’s
decisions and its progress in implementing our recommendations, SIGTARP interviewed OSM
officials and reviewed OSM’s 2012 determinations and supporting documentation for 69 Ally,
AIG, and GM Top 25 employees.

SIGTARP evaluated whether OSM followed its guidelines to limit cash and total compensation.
To identify criteria that OSM used to evaluate executive compensation, SIGTARP reviewed the
Emergency Economic Stabilization Act of 2008, the American Recovery and Reinvestment Act
of 2009, TARP Standards for Compensation and Corporate Governance; Interim Final Rule, and
Congressional testimony.

SIGTARP conducted this evaluation in accordance with the “Quality Standards for Inspection
and Evaluation” established by the Council of the Inspectors General on Integrity and Efficiency.
Those standards require that SIGTARP plan and perform the evaluation to obtain evidence
sufficient to provide a reasonable basis for findings and conclusions based on the evaluation
objectives. SIGTARP believes that the evidence obtained provides a reasonable basis for the
findings and conclusions based on the evaluation objectives.

Limitations on Data
SIGTARP relied upon Treasury to identify and provide email communication and documents
related to the executive compensation determination process. It is possible that the


23
     AIG repaid its Government assistance in December 2012.



SIGTARP 13-001                                                                   January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES             40




documentation provided by Treasury did not reflect a comprehensive response to SIGTARP’s
documentation requests, potentially limiting SIGTARP’s review.

Use of Computer-Processed Data
SIGTARP did not use computer-processed data during this evaluation. SIGTARP obtained data
from determination memorandums that are available to the public on Treasury’s website.

Internal Controls
To assess internal controls over OSM’s determination process, SIGTARP interviewed OSM staff
and requested OSM’s policies and procedures to determine the extent to which policies and
procedures existed, and whether internal controls were reasonable and effective.

Prior Coverage
On January 23, 2012, SIGTARP issued evaluation report 12-001, “The Special Master’s
Determinations for Executive Compensation of Companies Receiving Exceptional Assistance
Under TARP.” This report addresses the process OSM designed to set pay packages and OSM’s
decisions on compensation for the Top 25 employees at the companies that received exceptional
assistance under TARP. Under this evaluation, SIGTARP assessed the criteria used by OSM to
evaluate and make determinations on each company’s executive compensation packages and
whether OSM consistently applied criteria for the determinations made in 2009, 2010, and 2011.

On October 14, 2009, SIGTARP issued audit report 10-002, “Extent of Federal Agencies’
Oversight of AIG Compensation Varied, and Important Challenges Remain.” This report
addresses the extent of knowledge and oversight by Federal Reserve and Treasury officials over
AIG compensation programs and, specifically, payments to retain employees in the AIG
Financial Products (“AIGFP”) unit. The report also addresses the extent to which executive
compensation restrictions or preexisting contractual obligations governed AIGFP retention
payments, the outstanding AIG compensation issues requiring resolution, and Government
actions to address them.

On August 19, 2009, SIGTARP issued audit report 09-003, “Despite Evolving Rules on
Executive Compensation, SIGTARP Survey Provides Insights on Compliance.” This report
addresses the efforts of TARP recipients to comply with executive compensation restrictions and
plans to comply with subsequently enacted changes in requirements.




SIGTARP 13-001                                                                 January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES             41




Appendix B – AIG Determinations




SIGTARP 13-001                                                                 January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES             42




Appendix C – Ally Determinations
The following table is from Ally’s April 6, 2012 Determination memorandum. After Ally
subsidiary ResCap filed for bankruptcy, OSM removed long-term restricted stock from all Ally
employee pay packages, not just ResCap employees, replacing long-term restricted stock with
stock salary, which vests immediately.




SIGTARP 13-001                                                                 January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES             43




Appendix D – GM Determinations




SIGTARP 13-001                                                                 January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                44




Appendix E – Principles of TARP Standards for
Compensation and Corporate Governance; Interim
Final Rule

Principle           Definition
Risk                The compensation structure should avoid incentives to take unnecessary or
                    excessive risks that could threaten the value of the TARP recipient,
                    including incentives that reward employees for short-term or temporary
                    increases in value, performance, or similar measure that may not ultimately
                    be reflected by an increase in the long-term value of the TARP recipient.
                    Accordingly, incentive payments or similar rewards should be structured to
                    be paid over a time horizon that takes into account the risk horizon so that
                    the payment or reward reflects whether the employee’s performance over
                    the particular service period has actually contributed to the long-term value
                    of the TARP recipient.
Taxpayer            The compensation structure, and amount payable where applicable, should
Return              reflect the need for the TARP recipient to remain a competitive enterprise,
                    to retain and recruit talented employees who will contribute to the TARP
                    recipient’s future success, and ultimately to be able to repay TARP
                    obligations.
Appropriate         The compensation structure should appropriately allocate the components of
Allocation          compensation such as salary, short-term and long-term incentives, as well as
                    the extent to which compensation is provided in cash, equity, or other types
                    of compensation such as executive pensions, other benefits, or perquisites,
                    based on the specific role of the employee and other relevant circumstances,
                    including the nature and amount of current compensation, deferred
                    compensation, or other compensation and benefits previously paid or
                    awarded. The appropriate allocation may be different for different positions
                    and for different employees, but generally, in the case of an executive or
                    other senior-level position, a significant portion of the overall compensation
                    should be long-term compensation that aligns the interest of the employee
                    with the interests of shareholders and taxpayers.
Performance-        An appropriate portion of the compensation should be performance based
Based               over a relevant performance period. Performance-based compensation
Compensation        should be determined through tailored metrics that encompass individual
                    performance and/or the performance of the TARP recipient or a relevant
                    business unit, taking into consideration specific business objectives.
                    Performance metrics may relate to employee compliance with relevant
                    corporate policies. In addition, the likelihood of meeting the performance
                    metrics should not be so great that the arrangement fails to provide an


SIGTARP 13-001                                                                   January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES                45




                    adequate incentive for the employee to perform, and performance metrics
                    should be measurable, enforceable, and actually enforced if not met. The
                    appropriate allocation and the appropriate performance metrics may be
                    different for different positions and for different employees, but generally a
                    significant portion of total compensation should be performance-based
                    compensation, and generally that portion should be greater for positions that
                    exercise higher levels of responsibility.
Comparable          The compensation structure, and amount payable where applicable, should
Structures and      be consistent with, and not excessive, taking into account compensation
Payments            structures, and amounts for persons in similar positions or roles at similar
                    entities that are similarly situated, including, as applicable, entities
                    competing in the same markets and similarly situated entities that are
                    financially distressed or that are contemplating or undergoing
                    reorganization.
Employee            The compensation structure, and amount payable where applicable, should
Contribution to     reflect the current or prospective contributions of an employee to the value
TARP Recipient      of the TARP recipient, taking into account multiple factors such as revenue
Value               production, specific expertise, compliance with company policy and
                    regulation (including risk management), and corporate leadership, as well as
                    the role the employee may have had with respect to any change in the
                    financial health or competitive position of the TARP recipient.




SIGTARP 13-001                                                                   January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES              46




Appendix F – Acronyms and Abbreviations
Acronym or            Definition
Abbreviation

AIG                   American International Group, Inc.
Ally                  Ally Financial Inc. (formerly General Motors Acceptance Corporation,
                      Inc.)
GM                    General Motors Corporation
IFR                   TARP Standards for Compensation and Corporate Governance; Interim
                      Final Rule (also “Treasury’s Rule”)
OSM                   Office of the Special Master for TARP Executive Compensation
ResCap                Residential Capital, LLC (Ally Financial Inc.’s mortgage subsidiary)
SIGTARP               Office of the Special Inspector General for the Troubled Asset Relief
                      Program
TARP                  Troubled Asset Relief Program
Top 25                the five senior executive officers and the next 20 most highly compensated
                      employees
Treasury              U.S. Department of the Treasury




SIGTARP 13-001                                                                  January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES             47




Appendix G – Evaluation Team Members
This evaluation was conducted and the report was prepared under the direction of Kurt W. Hyde,
Deputy Special Inspector General for Audit and Evaluation, and Bruce Gimbel, Acting Assistant
Deputy Special Inspector General for Audit and Evaluation, Office of the Special Inspector
General for the Troubled Asset Relief Program.

Staff members who conducted the evaluation and contributed to the report include Craig Meklir,
Vonda Batts, Jennifer Principe, Meredith McDaniel, Brandon Crowder, Michelle Mang, Janice
Turner, Yusuf House, Tracy Davis-Ross, and Cynthia Broome.




SIGTARP 13-001                                                                 January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES             48




Appendix H – Management Comments




SIGTARP 13-001                                                                 January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES             49




SIGTARP 13-001                                                                 January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES             50




SIGTARP 13-001                                                                 January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES             51




SIGTARP 13-001                                                                 January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES             52




SIGTARP 13-001                                                                 January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES             53




SIGTARP 13-001                                                                 January 28, 2013
TREASURY CONTINUES APPROVING EXCESSIVE PAY FOR TOP EXECUTIVES AT BAILED-OUT COMPANIES             54




SIGTARP 13-001                                                                 January 28, 2013
SIGTARP Hotline
If you are aware of fraud, waste, abuse, mismanagement, or misrepresentations associated with the
Troubled Asset Relief Program, please contact the SIGTARP Hotline.

By Online Form: www.SIGTARP.gov
   U          U   U                   U        By Phone: Call toll free: (877) SIG-2009

By Fax: (202) 622-4559

By Mail:                 Hotline: Office of the Special Inspector General
                         for the Troubled Asset Relief Program
                         1801 L Street., NW, 3rd Floor
                         Washington, D.C. 20220


Press Inquiries
If you have any inquiries, please contact our Press Office:
                                                              Troy Gravitt
                                                              Director of Communications
                                                              Troy.Gravitt@treasury.gov
                                                              202-927-8940

Legislative Affairs
For Congressional inquiries, please contact our Legislative Affairs Office:
                                                               Joseph Cwiklinski
                                                               Director of Legislative Affairs
                                                               Joseph.Cwiklinski@treasury.gov
                                                               202-927-9159

Obtaining Copies of Testimony and Reports
To obtain copies of testimony and reports, please log on to our website at www.SIGTARP.gov.
                                                                           U                     U




SIGTARP 13-001                                                                       January 28, 2013
